<html>
<title> - COMPUTER VIRUSES: THE DISEASE, THE DETECTION, AND THE PRESCRIPTION FOR PROTECTION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




COMPUTER VIRUSES: THE DISEASE, THE DETECTION, AND THE PRESCRIPTION FOR 
                               PROTECTION

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2003

                               __________

                           Serial No. 108-66

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                               __________

90-727              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
----------------------------------------------------------------------------  
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                      Ranking Member
FRED UPTON, Michigan                 HENRY A. WAXMAN, California
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
PAUL E. GILLMOR, Ohio                RALPH M. HALL, Texas
JAMES C. GREENWOOD, Pennsylvania     RICK BOUCHER, Virginia
CHRISTOPHER COX, California          EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
  Vice Chairman                      BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
CHARLIE NORWOOD, Georgia             BOBBY L. RUSH, Illinois
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN SHIMKUS, Illinois               BART STUPAK, Michigan
HEATHER WILSON, New Mexico           ELIOT L. ENGEL, New York
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES W. ``CHIP'' PICKERING,       GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JAN SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
ERNIE FLETCHER, Kentucky
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho

                   Dan R. Brouillette, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Telecommunications and the Internet

                     FRED UPTON, Michigan, Chairman

MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                      Ranking Member
CLIFF STEARNS, Florida               BOBBY L. RUSH, Illinois
  Vice Chairman                      KAREN McCARTHY, Missouri
PAUL E. GILLMOR, Ohio                MICHAEL F. DOYLE, Pennsylvania
CHRISTOPHER COX, California          JIM DAVIS, Florida
NATHAN DEAL, Georgia                 RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               BART GORDON, Tennessee
JOHN SHIMKUS, Illinois               PETER DEUTSCH, Florida
HEATHER WILSON, New Mexico           ANNA G. ESHOO, California
CHARLES W. ``CHIP'' PICKERING,       BART STUPAK, Michigan
Mississippi                          ELIOT L. ENGEL, New York
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
CHARLES F. BASS, New Hampshire       GENE GREEN, Texas
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Hancock, William, Chief Executive Officer, Internet Security 
      Alliance...................................................    30
    Holleyman, Robert W., II, President and Chief Executive 
      Officer, Business Software Alliance........................    42
    Pethia, Richard D., Director, CERT Coordination Center, 
      Software Engineering Institute, Carnegie Mellon University.    13
    Silva, Ken, Vice President, VeriSign Inc.....................    26
    Wong, Arthur, Vice President, Security Response, Symantec 
      Corporation................................................    37

                                 (iii)

  

 
COMPUTER VIRUSES: THE DISEASE, THE DETECTION, AND THE PRESCRIPTION FOR 
                               PROTECTION

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

              House of Representatives,    
              Committee on Energy and Commerce,    
                     Subcommittee on Telecommunications    
                                          and the Internet,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Stearns, Deal, 
Shimkus, Bass, Bono, Walden, Markey, McCarthy, Eshoo, and 
Green.
    Staff present: Kelly Zerzan, majority counsel; Will 
Nordwind, majority counsel and policy coordinator; Neil Fried, 
majority counsel; Jaylyn Connaughton, majority professional 
staff; Will Carty, legislative clerk; Peter Filon, minority 
counsel; and Jessica McNiece, minority research assistant.
    Mr. Upton. Good morning, everyone. I apologize for this 
virus, but I would rather have this virus than one at my house 
on my computer. You need to take that sucker back to the 
hospital.
    Good morning. Today's hearing is entitled ``Computer 
Viruses: The Disease, the Detection and the Prescription for 
Prevention.'' If someone had told me a few years ago that an 
evil scientist plotted from his underground lair to send a 
malicious code to infect computers all around the world with a 
worm which would first replicate itself for the first 20 days 
of each month, the second would deploy web pages on infected 
servers with a page that declared ``hacked by the Chinese'' and 
third launch a concerted attack on the White House Web server 
in an attempt to overwhelm it, I would have guessed that this 
was the latest plot in the next James bond movie. What we now 
know is, in fact, this happened with the ``Code Red'' worm in 
July 2001.
    Unfortunately, worms and viruses are not science fiction. 
They are an alarming fact of life in the Internet age. The 
Internet now connects over 170 million computers, and the 
number continues to grow. Our society is increasingly dependent 
upon the Internet to communicate bank and purchase goods and 
services. Moreover, many of our Nation's important functions, 
such as the electricity grid, the stock exchanges, the banking 
system and commerce rely in large part on the smooth and 
uninterrupted operation of the Internet.
    Without a doubt, our reliance on the Internet has had a 
positive effect on the productivity, efficiency and convenience 
of our country. However, it is precisely this fact which makes 
us so vulnerable to the havoc which can be wreaked by viruses 
and worms. I speak from experience when I say that anyone who 
has lost files or work or has had their computer crash due to a 
worm or virus knows the frustration which they cause.
    In addition, worms and viruses can cause tremendous 
economic damage. So far, damages in the form of lost 
productivity, wasted hours, lost sales, extra bandwidth from 
the ``Blaster'' worm alone are estimated to be at least $525 
million; and ``Sobig.F'' damages are estimated to be over $500 
million again. Some estimates are even higher, even in the 
billions of dollars.
    As bad as that is, in the wake of September 11, there is 
the even more chilling specter of cyberterrorist attacks on our 
Nation's increasingly Internet-dependent critical 
infrastructures. Research and analysis suggests that worms and 
viruses are proliferating and are able to move with increasing 
speed across the globe. According to testimony we are going to 
hear today, the ``Slammer'' worm had a significant impact in 
just minutes; and the depressing fact is that it only takes one 
personal computer, some decent programming skills, a warped 
mind and a cruel heart to launch a virus or a worm with over 
40,000 viruses and their variant strains that have been 
identified to this day. It appears as if these traits are not 
in short supply.
    Law enforcement is a critical element in stopping those who 
seek to infect the Internet with viruses and worms, and I would 
note that just yesterday Microsoft announced that it has put up 
$5 million in reward money for information which will lead law 
enforcement to the successful capture of the culprits who 
launch destructive viruses and worms. I applaud their efforts.
    While I hope that the bounty will help, I recognize that 
law enforcement in this area is extremely challenging. That is 
why the focus of today's hearing is on the prescription for 
protection. We need to figure out how both we can adequately 
arm all levels of government, business and the consumers with 
the best information as to what steps they can take to protect 
themselves and how we can ensure that everyone takes those 
steps. That is what we hope to learn today from the 
distinguished panel.
    At this point I yield to the ranking member of the 
subcommittee, my friend the, gentleman from Massachusetts, Mr. 
Markey.
    Mr. Markey. Thank you, Mr. Chairman.
    Did you say you had a virus, Mr. Chairman?
    Mr. Upton. Yeah. Is that why you are over there?
    Mr. Markey. Yeah. So----
    Mr. Upton. I haven't touched the documents over here yet, 
so it is spreading throughout the office just like that. I have 
got two people sick today--one yesterday, three today.
    Mr. Markey. So----
    Mr. Upton. Congress will be out of session tomorrow for 
good reason.
    Mr. Markey. And a real virus--what you have is much worse 
than anything these people are going to talk about. I mean 
infinitely worse, okay? So just so we can--if we can have a 
hearing on a computer virus, then we should actually try to 
take measures--they are going to tell us about how to prevent 
the spread of these viruses, right? So I am going to try to 
stay over here.
    Mr. Upton. There is no feeder.
    Mr. Markey. And I want to commend you for calling this 
hearing. It is a subject that plagues millions of computer 
users as well as businesses around the country. They can wreak 
havoc as they propagate their way through computer networks, 
including the Internet. Because of the increasing 
interconnectedness of our Nation's telecommunications and 
computer infrastructure and the fact that ever more Americans 
go on-line every year, we can see an increased vulnerability to 
the debilitating nature of a virus attack.
    There are some 65,000 viruses for the Windows program, 
which over 90 percent of American computer users utilize. Some 
computer experts have pointed out the inherent vulnerability of 
millions of computer users relying upon the same operating 
system. The very interoperability and efficiency that 
businesses and computers prize about their telecommunications 
and computer capabilities have an Achilles-heel quality if 
preyed upon by computer programmers with nefarious intent.
    Microsoft has announced recently a program to make bounty 
payments to those who lead them to the creators of viruses that 
attack Microsoft software. The result of a cyberattack can 
cause consumers to lose valuable files and data. They can 
render a computer network inoperable for hours or even days, 
and they can cost victims millions of dollars in lost time, 
sales and equipment.
    A whole industry has grown up with the personal computer to 
help thwart such attacks and fight viruses. Much like in the 
real world, where new viruses or variations of older strains 
may arise each flu season requiring new vaccination, software 
programmers for security firms are constantly battling new 
viruses that are launched onto the Internet on a seemingly 
daily basis. One estimate indicates that U.S. companies spent 
over $12 billion last year alone in combatting and cleaning up 
after virus attacks.
    Moreover, with the threat posed by terrorists, especially 
intelligent, sophisticated terrorist organizations with access 
to great financial resources, the prospect of cyberterrorism is 
a clear danger to our key infrastructure and our economy.
    I want to commend you, Mr. Chairman, for calling this 
timely hearing; and I yield back the balance of my time.
    Mr. Upton. Thank you, Mr. Markey. Mr. Shimkus from 
Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman. I also want to thank 
you for holding this hearing.
    I do have a bill that is being marked up in the Senate 
Foreign Relations Committee this morning. I am going to run 
over there and do some personal lobbying on that. I am really 
the last person that wants to make any analysis or comment on 
security at this time, so I respectfully yield back the balance 
of my time.
    Mr. Upton. Make sure you have an escort over to the Senate.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman, for calling this 
hearing regarding impacts and solutions for the computer virus 
problem.
    Computer viruses are causing terrible harm to the computer 
users and billions in damages to U.S. Businesses. Computer 
technologies have delivered tremendous benefits to our economy 
and society in the recent years, but there are unintended 
consequences. We have unsolicited e-mails, we have viruses, we 
have computer worms, and recent combinations of that are 
attempting to swarm our networks. The combination of e-mail, 
spam and viruses is like putting a SARS patient on every 
airline flight in the country.
    In August, the Sobig virus became the fastest-spreading and 
most pervasive computer virus in history. How did Sobig spread 
so fast? Spam. What was the cost? At least $3 billion.
    An August 12, 2003, Business Week article described how 
virus writers and spammers are borrowing each others techniques 
with devastating consequences; and, Mr. Chairman, I ask 
unanimous consent to place this Business Week article in the 
record.
    Mr. Upton. Without objection.
    [The article follows:]

                              SECURITY NET

                             By Jane Black
                    Unholy Matrimony: Spam and Virus

    Their common goal is subterfuge, and by combining their strategies, 
they could make today's junk e-mail look like a mere nuisance
    In June, half of all e-mail was spam--those annoying unsolicited 
messages that hawk everything from porn and Viagra to mortgage-
refinancing deals and weight-loss patches. But if you think spam is out 
of control, prepare yourself. It could get a lot worse.
    Over the past few months, e-mail security companies have seen 
mounting evidence that spammers are using virus-writing techniques to 
assure that their sales pitches get through. At the same time, intrepid 
virus writers have latched onto spammers' trusty mass-mailing 
techniques in an effort to wreak widespread digital mayhem. ``What 
we're seeing is the convergence of the spammer and the malicious code 
writer,'' says David Perry, global director of education at antivirus 
company Trend Micro (TMIC).
    RELAY STATIONS. Witness the recent spread of a virus known as 
Webber, which was discovered on July 16. It carried the subject line 
``Re: Your credit application.'' Users who opened the attachment 
downloaded a malicious program that turned a home PC into a so-called 
open relay server, which allows a third party to send or receive e-
mail--including spam--remotely from that PC. Spammers are notorious for 
using open relays to hide their identities. According to British e-mail 
security company MessageLabs, 70% of spam comes through open relays.
    Then there's Sobig.E, a virus that grabs e-mail addresses from 
several different locations on a PC, including the Windows address book 
and Internet cache files. Sobig.E then tries to send a copy of itself 
to each address. It also uses one of the stolen addresses to forge the 
source of the message, so that it appears to come from someone else. 
MessageLabs believes Sobig.E is a spammers' virus designed to harvest 
legitimate e-mail addresses from users' computers.
    So far, no concrete evidence shows any home PCs that have been 
infected by either Webber or Sobig.E have been used to send spam. But 
experts fear that the two viruses could be ``spam zombies,'' programs 
that will lie in wait on a PC until called on by the spammer to send 
out millions of untraceable e-mails.
    ``I LOVE YOU'' MORE. The convergence of spam and malicious code 
makes sense, says Chris Miller, Symantec's (SMYC) group product manager 
for enterprise e-mail security. ``They have a common goal--to do what 
they're doing without being seen,'' Miller says.
    Virus writers and spammers send out their messages from 
illegitimate e-mail accounts, never from the ISPs where they are 
registered. It isn't hard to see where the union of these two insidious 
groups' techniques might lead. Using such weapons as Sobig.E and 
Webber, spammers can hijack a user's address book, then use the PC to 
send out hundreds, even thousands, of junk messages.
    And virus writers can use mass-mailing techniques to spread 
malicious code even faster than before. The destructive ``I Love You'' 
virus of 2000 was originally sent to a small number of people. Within 
days it had affected tens of millions of computers and caused damage 
worth hundreds of millions of dollars. Imagine if, like spam, it had 
originally been mailed to a half-million computers.
    Security experts cite other recent examples of spam-virus 
convergence:

 Key-logger Trojans. In May, 2003, a major food-manufacturing company 
        received a spam e-mail that, when viewed in a preview pane in 
        Microsoft Outlook, showed a message that appeared to be an 
        opportunity to sign up for a newsletter. First, though, the 
        message asked the recipient to verify their e-mail log-on ID 
        and password. That information was collected by the key-logger 
        code and then sent to the spammer, who could then log into the 
        user's e-mail at any time and search for valuable information.
 Drive-by downloads. Recent spam sent to a major airline manufacturer 
        led unsuspecting users to Web pages where spying software was 
        secretly downloaded without the user's knowledge. So-called 
        spyware monitors a user's activity on the Internet and 
        transmits that information to someone else, usually an 
        advertiser or online marketer. Spyware can also gather 
        information about e-mail addresses, passwords, and credit-card 
        numbers. Drive-by downloads can be done without either 
        notifying the user or asking permission because many users 
        accept such a download without question, thinking it's a normal 
        function of the Web site.
    CALL IT ``MALWARE.'' According to the strictest definitions, key 
loggers and drive-by downloads aren't viruses, which are programs that 
replicate themselves. (If you've seen The Matrix Reloaded, think of the 
way Agent Smith makes infinite copies of himself to try to destroy 
Keanu Reeves' Neo.) A Trojan is a program that rolls into your computer 
unannounced, then persuades the computer to launch it through fraud.
    As spam and malicious code converge, however, such definitions are 
becoming less useful. That's why experts like Trend Micro's Perry are 
now looking at a broader term--``malware''--to describe any program 
with malicious intent. ``With traditional hackers, the motivation has 
always been to prove that you're a rad dude,'' Perry said in a phone 
interview from the Las Vegas hacker convention DefCon. ``But when we 
start seeing these techniques used for commercial gain like spam, it's 
going to get a whole lot more serious.'' Cybersurfers, beware.

    Mr. Green. A third even more despicable tactic is also a 
possibility, a spam message with a virus that turns innocent 
computers into senders of more spam. It is the invasion of the 
in-box snatchers, with spammers turning our computers into 
spamming zombies with virus-infected spam infecting our 
networks.
    I am glad we are having this hearing to see what private-
sector solutions can be developed to attack this new and 
mutated infection. But there is also something this committee 
and this Congress can do about it. To complement and support 
private-sector efforts to stop spam and spam viruses, the 
majority of members of our committee are sponsors of H.R. 2515, 
the Wilson-Green Anti-Spam Act of 2003, which is the strongest 
anti-spam bill in Congress.
    Many are impressed that the Senate acted so quickly on 
their spam legislation, but I want to warn my colleagues that a 
weak spam bill will be worse than none at all. If we are going 
to preempt State laws under which State actions are currently 
being brought, it needs to be a strong Federal law. With the 
unholy alliance of spam and viruses we need all the law 
enforcement tools on hand to protect ourselves.
    The Senate-passed bill has ineffective enforcement, as a 
bipartisan Internet committee of the National Association of 
Attorney Generals concluded in their November 4 letter. The 
letter was signed by the Texas Attorney General, along with 
Attorney Generals from California, Kansas, Maryland, Nevada, 
Vermont, Virginia and Washington. And, again, Mr. Chairman, I 
ask unanimous consent to enter this into the record.
    Mr. Upton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0727.001
    
    [GRAPHIC] [TIFF OMITTED] T0727.002
    
    [GRAPHIC] [TIFF OMITTED] T0727.003
    
    [GRAPHIC] [TIFF OMITTED] T0727.004
    
    Mr. Green. To cite one example of how strong anti-spam 
legislation will cut down on computer viruses, the Wilson-Green 
bill bans misleading subject lines. Misleading subject lines 
are a primary way that spam viruses work, enticing innocent 
users to open dangerous e-mail.
    The bill offered by my good friend, Mr. Burr of North 
Carolina, does not prohibit misleading subject lines. The bill 
that passed the Senate allows spammers an affirmative defense 
clause so that they can argue that they tried to follow a law 
while they were actually violating it.
    The Wilson-Green bill also prohibits dictionary attacks, a 
highly effective spamming method that can make a spam virus 
even more devastating. Neither the Burr bill nor the Senate-
passed bill prohibits dictionary attacks.
    These differences don't just impact how much consumers are 
annoyed. They have a major impact on our economy. I stand ready 
to continue working with the Chairman of the subcommittee, the 
full committee and Mr. Burr to get a strong bill out to the 
House.
    In closing, I want to mention again that just one spam 
virus caused at least $3 billion in economic damages. Some 
estimates are much higher. Viruses used to be sent out by 
hackers trying to prove how smart they are. Now spam viruses 
like Sobig are being sent out by people trying to see how much 
money they can make. I believe we need to act on a strong anti-
spam legislation with law enforcement that is tough as soon as 
possible.
    Again, Mr. Chairman, thank you for holding this hearing; 
and again, to this distinguished panel, I look forward to their 
responses. Thank you.
    Mr. Upton. Thank you very much.
    Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I am going to defer an 
opening statement.
    I just hope we can figure out how to get these modern-day 
vandals early and prevent this kind of abuse. I look forward to 
the testimony of the panel. I intend to read their submitted 
testimony.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you very much.
    [Additional statements submitted for the record follow:]

    Prepared Statement of Hon. Paul E. Gillmor, a Representative in 
                    Congress from the State of Ohio

    I thank the Chairman for the opportunity to address this important 
issue. The increasing use of computers and the steady spread of the 
digital age continues its worldwide impact. Yet, the negative effects 
of computer viruses threaten our personal and national security.
    Each day, thousands of people and corporations find their computer 
infrastructure compromised by viruses, worms, and other digital 
threats. In 2002, computer viruses in the United States caused nearly 
$50 million in damages. The August 2003, threat of the Sobig and virus 
alone cost almost $30 billion in worldwide damages.
    Today we are a nation dependent on the resources of the digital 
age. The use of the Internet, email, instant messaging, and online 
shopping and banking provide many Americans with the resources for a 
simpler life. However, the many wonderful features of computers and the 
Internet are often overshadowed by the acts of the malicious few. The 
50 percent increase in theft of confidential data during the first half 
of this year is just one of the many evils that will continue to face 
our people and businesses.
    In addition, we face an imminent threat to our national security 
systems which cannot be ignored. The reliance on digital technology by 
the energy, medical and defense systems across the United States and my 
State of Ohio, while necessary, leaves our country susceptible to many 
dangers. The lack of solid computer security measures capable of 
protecting against a constant bombardment of technology attacks poses a 
direct threat to our national security.
    Our first priority has to be informing the people. As a first step, 
an increased use of anti-virus software and firewalls will assist in 
securing many of the computers and systems currently vulnerable to 
attack. All of our friends, families, and staffs have felt the effects 
of digital attacks; some through personal trauma, others through the 
press, but all through the damaging results on our country and our 
economy. Today we must commit to inform and assist in this fight.
    I welcome the well-balanced panel of witnesses and look forward to 
hearing your perspectives concerning this timely issue.
    Again, I thank the Chairman and yield back the remainder of my 
time.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman.
    I would like to thank you for holding this hearing to examine the 
scourge of computer viruses. As our nation continues its evolution to a 
fully wired or in this day and age <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0243756b70676e67717142">[email&#160;protected]</a> technological society, 
the impact of malicious computer programs can be staggering. Frankly, 
it's hard for me to comprehend why someone would consciously act to 
debilitate the property of others. Just as puzzling as the brazen acts 
of thieves and other common thugs, or the international threat of 
homicide bombings, the proliferation and complexity of these 
cyberattacks are testaments to the growing criminal element and 
national security threat that worms and viruses embody.
    As a result of this hearing I would like to get a better 
understanding of the scope of the problem and the impact it has on 
commerce and the operation of our nation's electronic infrastructure. I 
am also hoping that our expert panel can clarify the differences 
between worms and viruses and explain what steps consumers and 
businesses can take to inoculate themselves against vulnerability. I'm 
also curious what role Congress plays in this matter. After all, it 
strikes me as a difficult endeavor in the anonymous realm of the 
Internet to catch the perpetrators of these crimes, while 
simultaneously observing constitutional protections against search and 
seizure.
    Nevertheless, as a Member representing rural Wyoming, where the 
Internet keeps us connected to the rest of America, I have concerns 
about how these vulnerabilities affect the small businesses and 
entrepreneurs across the state, and by extension our local economy.
    We have the opportunity in today's hearing to fully analyze the 
threat of worms and viruses and make certain that not only is our 
marketplace secure but also the vital government computer systems that 
could be tempting targets for a terrorist attack.
    Thank you Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 
Prepared Statement of Hon. Mary Bono, a Representative in Congress from 
                        the State of California

    Mr. Chairman, I would like to thank you for your leadership on this 
issue. Computer viruses and worms pose a substantial threat to the 
Internet, consumers, and the stability of businesses. I look forward to 
hearing from the witnesses to learn more about various ways we may help 
in the fight against cyber attacks.
    It is unfortunate that some have found ways to program malicious 
code onto the computers of others. Such codes substantially slow down 
computer performance and sometimes even bring computers to a screeching 
halt.
    The result is more than mere inconvenience. Such security 
violations are quite costly. In fact, experts estimate that 
corporations in the United States alone spent approximately $12.3 
billion to clean up damage from computer viruses in 2001, and that the 
worms of this past summer costs businesses up to $3 billion.
    Part of the problem is that often times, the potential damage is 
undetectable until it is too late. Businesses as well as consumers are 
repeatedly uninformed about possible cyber attacks. In fact, some cyber 
attacks can be launched, while remaining entirely undetectable.
    For example, as many of you know, this past July, I along with 
Congressman Edolphus Towns, introduced H.R. 2929, ``the Safeguards 
Against Privacy Invasions Act,'' or rather the SPI Act. This bill aims 
to address the issues related to ``spyware.'' Like viruses, spyware 
programs embed codes into other computer programs, affecting the 
efficiency of computers.
    However, spyware is even more threatening since such code can be 
used to actually spy on computer users. Some spyware programs track the 
actions of Internet travelers for the purpose of presenting targeted 
advertisements, but many spyware programs are used to view computer 
users' actions, enabling access to personal and financial information 
by unknown entities.
    According to a recent industry publication, spyware is rampant and 
problematic, and ``nearly 75 percent of customer problems with computer 
performance can be linked in some way to spyware and its 
applications.'' The Reporter (July 7, 2003). Despite this enormous 
effect on computer users, shortly after introducing the SPI Act, it 
became evident to me that many members of Congress and consumers are 
unaware of spyware.
    I hope to hear the witnesses' thoughts on the issue of spyware as 
it relates to computer viruses and other computer problems, and I urge 
my colleagues to seriously consider this issue, as I feel that it may 
be one of the most serious threats facing our computer-using 
constituents.

                                 ______
                                 
 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    Thank you, Mr. Chairman, for holding this very important hearing 
today on computer worms and viruses. We saw a summer season full of 
news stories about computer bugs with names such as ``Blaster'' and 
``Slammer,'' and I hope this hearing can shed some light on this very 
troubling subject.
    There is no question that modern computer viruses are the ``common 
cold'' of the Internet. They can spread quickly across open networks, 
like the Internet, and each bug can cause billions of dollars in damage 
in its wake.
    To put the threat into some perspective, five years ago the chance 
of receiving a virus over a 12-month period was about 1 in 1000. Today, 
the chance of infection has dropped dramatically to about 1 in 10. In 
fact, while the number of Internet users continues to grow at a healthy 
pace, the dangerous activity on the Internet is growing even faster.
    Virus experts have recorded more than 65,000 worms and viruses and 
their strains over the years. Although, thankfully, most viruses are 
annoying time-wasters. Increasingly, however, we are seeing more 
advanced and sophisticated threats that can deliver a destructive 
payload.
    Traditionally, we have viewed cyber attacks as threats to 
information that could wreak havoc on businesses, governments and 
economies across the world. But today, our nation's critical physical 
infrastructure is powered by computer systems that utilize the 
Internet. Such attacks can shut down facilities like airports, bridges, 
electrical grids, nuclear plants, and air traffic control--posing 
enormous public safety risks. It is only a matter of time before 
Internet worms and viruses are used to attack infrastructure that will 
result in more than just financial losses. For this reason, cyber 
security must be at the forefront of the minds of those in business and 
government.
    We have an excellent panel of experts before us today to educate us 
on this important issue. Businesses need to ramp up their cyber 
security, consumers need to be vigilant, and Congress must continue to 
ensure our computer and technology networks are safe.
    I am anxious to hear from our witnesses what can be done to stem 
the tide of computer worms and viruses, what steps are being taken to 
address our vulnerabilities, and what role, if any, the federal 
government--specifically the Congress--can play to promote increased 
awareness and action on these issues.
    Thank you again, Mr. Chairman for holding this hearing. I yield 
back my time.

                                 ______
                                 
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California

    Mr. Chairman, thank you for holding this hearing.
    I'd like to welcome Ken Silva of VeriSign and Art Wong of Symantec. 
Both VeriSign and Symantec are based in my district and I'm proud that 
they join this panel of experts today to discuss what I think could be 
one of the most important hearings this panel holds.
    Our country is increasingly dependent on the network of computers 
that make up the Internet.
    We use this technology in our day-to-day activities . . . from 
checking the weather to our checking account.
    Most people don't realize the amount of personal information 
readily available through the Internet and how vulnerable this 
information is to cyber attacks and how fragile our patchwork of 
networked critical infrastructure really is.
    The blackout in the Northeast last August is an example not only of 
how connected we are, but how, when parts of those connections fail, 
entire regions and sectors of our economy can literally be shut down.
    Clearly the protection of this infrastructure is an important topic 
that the Congress must address.
    The number of worms and computer viruses that have paralyzed the 
Internet and seriously affected our economy have grown in the last 
year.
    This is not just hacking taking place--these worms and viruses can 
stop the commerce taking place over the Internet. There are severe 
economic consequences to these cyber attacks. It's calculated that the 
worm attacks this summer cost nearly $2 billion dollars.
    Our ability to respond to these threats greatly depends on 
cooperation between the public, the private sector and the federal 
government. The Department of Homeland Security is one of the key 
components in establishing a relationship with the private sector that 
will help build programs to combat these threats. There's much work to 
be done, but we've at least begun to address the serious threat of 
cyber attacks through homeland security initiatives.
    We also need to make sure that we promote consumer education and 
awareness of these threats.
    Individual home users need to realize that their Internet use is 
also vulnerable to attacks and their computers may be used to 
disseminate computer viruses.
    Mr. Chairman, thank you for holding this important hearing. I look 
forward to the testimony of our panel of experts and working with you 
to solve this national challenge.

    Mr. Upton. Well, we are delighted to have a distinguished 
panel this morning. We are honored to have Mr. Richard Pethia, 
the Director of the CERT Coordination Center from the Software 
Engineering Institute; Mr. Ken Silva, Vice President of 
VeriSign; Dr. Bill Hancock, Chief Executive Officer of Internet 
Security Alliance; Mr. Art Wong, Vice President of Security 
Response for Symantec Corporation; and Mr. Robert Holleyman II, 
President and CEO of Business Software Alliance here in 
Washington.
    Gentlemen, your statements are made part of the record. At 
this point we would like you to take 5 minutes each to give an 
opening statement, at which point, when you are finished, we 
will have questions from the members that are here.
    Mr. Pethia.

 STATEMENTS OF RICHARD D. PETHIA, DIRECTOR, CERT COORDINATION 
    CENTER, SOFTWARE ENGINEERING INSTITUTE, CARNEGIE MELLON 
 UNIVERSITY; KEN SILVA, VICE PRESIDENT, VERISIGN INC.; WILLIAM 
 HANCOCK, CHIEF EXECUTIVE OFFICER, INTERNET SECURITY ALLIANCE; 
   ARTHUR WONG, VICE PRESIDENT, SECURITY RESPONSE, SYMANTEC 
 CORPORATION; AND ROBERT W. HOLLEYMAN, II, PRESIDENT AND CHIEF 
         EXECUTIVE OFFICER, BUSINESS SOFTWARE ALLIANCE

    Mr. Pethia. Thank you, Mr. Chairman and members of the 
subcommittee, for the opportunity to talk to you today about 
the important issue of cyberviruses and worms. My views today 
are shaped by the lessons we have learned at the CERT 
Coordination Center where for 15 years we have dealt with the 
problem and more recently have partnered with the Department of 
Homeland Security to form the U.S. CERT.
    Today, worms and viruses are a growing risk that cause 
damage more quickly than those created in the past. With the 
Code Red worm in 2001, there were days between the first 
identification and the widespread damage. In January of this 
year, Slammer had significant impact in just minutes.
    As already mentioned this morning, virus and worm attacks 
alone have resulted in millions of dollars of damage, with 
individual viruses often causing damage in excess of $500 
million. While the viruses and worms we have seen in the past 
have infected computers, clogged networks and mail servers, few 
have been programmed to do more than just propagate. In the 
future, it is likely we will see viruses and worms carrying 
payloads that delete or corrupt data and program files or leak 
sensitive information.
    It is clear that our current reactive solutions alone are 
no longer adequate. With the Internet now connecting over 171 
million computers and with many attacks now being fully 
automated, they spread with blinding speed across the entire 
Internet community. The attack technology is becoming 
increasingly complex, increasing the time it takes to analyze 
the attack mechanisms in order to produce antidotes. With 
increasing dependency on the Internet even short interruptions 
of service can cause significant economic loss in very short 
periods of time.
    What can we do?
    First of all, we need to continue to improve our warning 
and response capabilities by building collaborative 
partnerships across organizations that participate in 
cyberwatch warning and response functions.
    Second step is to reduce vulnerabilities by collaborating 
with the private sector to develop new tools and methods for 
detecting and remediating vulnerabilities in products that are 
commonly used in our information infrastructures. Especially 
needed are new generations of software that are virus resistant 
or virus proof. Vendors need to provide systems and software 
that constrain the execution of imported code, especially the 
code that comes from unknown or untrusted sources. Some 
techniques to do this have been known for decades. Others, such 
as sandbox attack techniques, are more recent.
    We need to dramatically reduce implementation errors. Last 
year over 4,000 new vulnerabilities were reported to the CERT 
Coordination Center.
    While it is unlikely that we will ever be able to develop 
defect-free software, vendors need to be proactive, study and 
learn from past vulnerabilities and adopt new known, effective 
software engineering practices that dramatically reduce the 
number of flaws in their software products.
    Finally, we need high security default configurations, out-
of-the-box software configurations that have security options 
turned on, rather than depending on the users to turn them on.
    System operators also need to take critical systems to 
adopt security practices. Senior managers must visibly endorse 
security improvement efforts and support adoption of effective 
practices and technologies and provide the resources needed to 
implement those improvements, keeping their skills and 
knowledge current by attending courses and using information 
sources that continue to track this dynamic and ever-changing 
problem.
    Finally, home users must improve their understanding of the 
problems and use practices and technology such as anti-virus 
products and personal computer firewalls.
    Other things we think the government can do would be to 
provide incentives for higher quality, more secure products. 
The government should use its buying power and adopt code 
integrity clauses, clauses that hold the vendors more 
accountable for security defects and provide incentives for 
vendors to supply low-defect products and products that are 
highly resistant to viruses.
    Also in this area are upgraded acquisition processes that 
put more emphasis on the security characteristics of the 
systems being required.
    In the long term, research is needed to develop a unified 
and integrated framework for all information assurance analysis 
design and implementation, rigorous methods to assess and 
manage risks, and simulation tools to analyze the possible 
cascade effects of attacks across interdependent systems.
    The government scholarship programs that currently exist to 
produce security specialists are doing a good job, but we need 
to expand those programs over the next 5 years to build the 
university infrastructure we will need for the long term.
    Finally, we need more awareness and training for all 
Internet users, including the development of educational 
material for children in the K through 12 age frames.
    The National Cybersecurity Division formed by the 
Department of Homeland Security and the U.S. CERT are steps 
toward implementation of these recommendations, but a safer 
cyberspace will require that the NCSD, the entire Federal 
Government, State and local governments and the private sector 
all work together to improve security practices, create higher 
quality software, build awareness at all levels and sponsor 
increased research and development activities leading to new 
generations of virus-tolerant products.
    [The prepared statement of Richard D. Pethia follows:]

 Prepared Statement of Richard D. Pethia, Director, CERT <SUP>'</SUP> 
 Coordination Center, Software Engineering Institute, Carnegie Mellon 
                               University

                              INTRODUCTION

    Mr. Chairman and Members of the Subcommittee: My name is Rich 
Pethia. I am the director of the CERT <SUP>'</SUP> Coordination Center 
(CERT/CC). Thank you for the opportunity to testify on the important 
issue of cyber security. Today I will discuss viruses and worms and the 
steps we must take to protect our systems from them.
    The CERT/CC was formed in 1988 as a direct result of the first 
Internet worm. It was the first computer security incident to make 
headline news, serving as a wake-up call for network security. In 
response, the CERT/CC was established by the Defense Advanced Research 
Projects Agency at Carnegie Mellon University's Software Engineering 
Institute, in Pittsburgh with a mission to serve as a focal point to 
help resolve computer security incidents and vulnerabilities, to help 
others establish incident response capabilities, and to raise awareness 
of computer security issues and help people understand the steps they 
need to take to better protect their systems. We activated the center 
in just two weeks, and we have worked hard to maintain our ability to 
react quickly. The CERT/CC staff has handled 260,000 incidents, 
cataloged and worked on resolutions to more than 11,000 computer 
vulnerabilities, and published hundreds of security alerts.
    In September of this year, the Department of Homeland Security, in 
conjunction with Carnegie Mellon University, created the US-CERT. The 
US-CERT is a growing partnership between the CERT/CC and DHS's National 
Cyber Security Division (NCSD) and is forging strong partnerships with 
many different types of organizations that conduct cyber security 
analysis and response efforts--From government laboratories, to 
academic institutions, to major hardware and software suppliers. The 
US-CERT is focused on preventing and mitigating cyber attacks and 
reducing cyber vulnerabilities. It provides the needed focal point for 
these over two hundred private, public, and academic organizations that 
conduct cyber security incident watch, warning, response, and 
prevention functions.

                  GROWING RISK FROM WORMS AND VIRUSES

    Worms and viruses are in a more general category of programs called 
``malicious code.'' Both exploit weaknesses in computer software, 
replicating themselves and/or attaching themselves to other programs. 
They spread quickly and easily from system to system. By definition, 
worms are programs that spread with no human intervention after they 
are started. Viruses are programs that require some action on the part 
of the user, such as opening an email attachment, before they spread. 
Users are often enticed to open email attachments, sometimes because of 
an intriguing or legitimate-sounding subject line and sometimes, when 
address books have been compromised, because the email appears to be 
from someone the user knows. Worms and viruses can bypass security 
measures, such as firewalls, and clog systems to the point that 
response is slow or shut off.
    Today, worms and viruses are causing damage more quickly than those 
created in the past and are spreading to the most vulnerable of all 
systems--The computer systems of home users. The Code Red worm spread 
around the world faster in 2001 than the so-called Morris worm moved 
through U.S. computers in 1988, and faster than the Melissa virus in 
1999. With the Code Red worm, there were days between first 
identification and widespread damage. Just months later, the Nimda worm 
caused serious damage within an hour of the first report of infection. 
In January of this year, Slammer had significant impact in just 
minutes.
    The figures attached to the end of this testimony show the speed 
and magnitude of the Blaster worm compared to previous worms, as well 
as indications of Blaster's and Sobig.F's continued impact. Figure 1, 
Blaster, Slammer, and Code Red Growth Over Day 1, shows how quickly 
Slammer infected a significant number of computer systems. It shows 
that Blaster was slightly slower than Slammer, but still much faster 
than Code Red. After 24 hours, Blaster had infected 336,000 computers; 
Code Red infected 265,000; and Slammer had infected 55,000. Figure 2, 
Comparing Blaster and Code Red in the First 18 Hours, shows the growth 
in the number of computers reached by the Blaster and Code Red worms in 
the first 18 hours. In both cases, 100,000 computers were infected in 
the first 3 to 5 hours. The fast exploitation limits the time security 
experts like those at the US-CERT have to analyze the problem and warn 
the Internet community. Likewise, system administrators and users have 
little time to protect their systems.
    Figure 3, Blaster-Infected Systems Scanning per Hour: Long-Lasting 
Effects, demonstrates how far-reaching worms and viruses can be. After 
the initial surge of infections from the Blaster worm and subsequent 
patching, the impact reached a steady-state of 30,000 computers in any 
given hour However, it is a different 30,000 computers (an average of 
150,000 in any given day), depending on the time of day. Peaks 
represent activity in different parts of the world, cycling through 
business days. The Blaster worm is still active and continues to have 
impacts on computer systems across the globe.

                      IMPACT OF WORMS AND VIRUSES

    At best, worms and viruses can be inconvenient and costly to 
recover from. At worst, they can be devastating. Virus and worm attacks 
alone have resulted in millions of dollars of loss in just the last 
twelve months.
    In the 2003 CSI/FBI Computer Crime and Security Survey 
(www.gocsi.com), viruses were the most cited form of attack (82% of 
respondents were affected), with an estimated cost of $27,382,340. The 
lowest reported cost to a victim was $40,000, and the highest was 
$6,000,000. The Australian Computer Crime and Security Survey found 
similar results, with 80% of respondents affected by viruses or worms. 
Of the victims, 57% reported financial losses, totaling $2,223,900. 
According to the Australian survey, one-third (33%) of the victims 
recovered in less than one day, and 30% recovered in one to seven days. 
The other 37% took more time, including two organizations that believe 
they might never recover.
    So far, damages from the Blaster worm are estimated to be at least 
$525 million, and Sobig.F damages are estimated to be over $500 million 
(Business Week, among other reports in the media).The cost estimates 
include lost productivity, wasted hours, lost sales, and extra 
bandwidth costs. The Economist (August 23, 2003) estimated that Sobig.F 
was responsible for one of every 16 email messages that crossed the 
Internet. In our own experience, Sobig.F has accounted for 87% of all 
email to our <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4e485f596d4e485f5903425f4a">[email&#160;protected]</a> address from August 18 through the end of 
that month. We received more than 10,000 infected messages a day, or 
one message every 8.6 seconds. Figure 4, Emails messages per Day to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8eedebfcfaceedebfcfaa0e1fce9">[email&#160;protected]</a>, shows this in a graph. Sobig.F was so effective because 
it could send multiple emails at the same time, resulting in thousands 
of messages a minute. Moreover, Sobig has been refined many times, 
making it harder to stop (the ``F'' stands for the 6th version).

                      IMPLICATIONS FOR THE FUTURE

    The significance of our recent experience with Blaster and Sobig.F 
lies beyond their specific activity. Rather, the worms represent a 
larger problem with Internet security and forecasts what we can expect 
in the future.
    My most important message today is that the Internet is vulnerable 
to these types of attack today, and the damage is likely to increase. 
While the viruses and worms we have seen in the past have caused 
considerable damage by infecting computers, and clogging networks and 
mail servers, few have been programmed to do more that just propagate. 
In the future, it is likely that we will see more malicious attacks 
with viruses and worms carrying payloads that delete or corrupt data 
and program files or leak sensitive information. These attacks could 
easily be aimed at computers used by government organizations at all 
levels and computers used at research laboratories, in schools, in 
business, and at home. They are vulnerable to problems that have 
already been discovered, sometimes years ago, and they are vulnerable 
to problems that will be discovered in the future.
    The implications for Federal, state, and local governments and for 
critical infrastructure operators is that their computer systems are 
vulnerable both to attack and to being used to further attacks on 
others. With more and more government and private sector organizations 
increasing their dependence on the Internet, our ability to carry on 
business reliably is at risk.

                 CURRENT REACTIVE SOLUTIONS ARE LIMITED

    For the past 15 years, we have relied heavily on the ability of the 
Internet community as a whole to react quickly enough to security 
attacks to ensure that damage is minimized and attacks are quickly 
defeated. Today, however, it is clear that reactive solutions alone are 
no longer adequate. To briefly summarize the factors,

 The Internet now connects over 171,000,000 computers and continues to 
        grow at a rapid pace. At any point in time, there are millions 
        of connected computers that are vulnerable to one form of 
        attack or another.
 Attack technology has now advanced to the point where it is easy for 
        attackers to take advantage of these vulnerable machines and 
        harness them together to launch high-powered attacks.
 Many attacks are now fully automated and spread with blinding speed 
        across the entire Internet community, regardless of geographic 
        or national boundaries.
 The attack technology has become increasingly complex and in some 
        cases intentionally stealthy, thus increasing the time it takes 
        to discover and analyze the attack mechanisms in order to 
        produce antidotes.
 Internet users have become increasingly dependent on the Internet and 
        now use it for many critical applications as well as online 
        business transactions. Even relatively short interruptions in 
        service cause significant economic loss and can jeopardize 
        critical services.
    These factors, taken together, indicate that we can expect many 
attacks to cause significant economic losses and service disruptions in 
very short periods of time. Aggressive, coordinated, continually 
improving response will continue to be necessary, but we must also move 
quickly to put other solutions in place.

                  RECOMMENDED ACTIONS--WHAT CAN WE DO?

    The actions needed to deal effectively with this growing problem 
are embodied in the strategy developed by the US-CERT. They include:

 Improved warning and response to incidents with increased 
        coordination of response information
 Reducing vulnerabilities
 Enhancing prevention and protection efforts

                     IMPROVED WARNING AND RESPONSE

    Improved warning and response functions are critically needed to 
combat fast moving automated attacks such as viruses and worms. To 
improve current response activities, the US-CERT is building a 
collaborative partnership between computer security incident response 
teams, managed security service providers, information technology 
vendors, security product and service providers and other organizations 
that participate in cyber watch, warning, and response functions. 
Working together, and using common information sharing and 
dissemination principles, the partnership is significantly increasing 
the nation's ability to protect against and respond to large-scale 
cyber incidents. Emphasis is currently be placed on the development and 
use of common alerting protocols and collaboration and communication 
mechanisms to support the rapid identification and analysis of new 
attacks and the timely production and dissemination and remediation 
information.

                        REDUCING VULNERABILITIES

    A key component of the US-CERT strategy is to collaborate with the 
private sector to develop new tools and methods for detecting and 
remediating vulnerabilities in products commonly used in our 
information infrastructures. Technology vendors are in a position to 
help prevent the spread of worms and viruses. Although some companies 
have begun moving toward improvement in the security in their products, 
there is a long way to go. Software developers do not devote enough 
effort to applying lessons learned about the causes of vulnerabilities. 
The same types of vulnerabilities continue to appear in newer versions 
of products that were in earlier versions.
    Additional vulnerabilities come from the difficulty of securely 
configuring operating systems and applications. These products are 
complex and often shipped to customers with security features disabled, 
forcing the technology user to go through the difficult and error-prone 
process of properly enabling the security features they need. While the 
current practices allow the user to start using the product quickly and 
reduce the number of calls to the product vendor's service center when 
a product is released, it results in many Internet-connected systems 
that are misconfigured from a security standpoint. This opens the door 
to worms and viruses.
    It is critical for technology vendors to produce products that are 
impervious to worms and viruses in the first place. In today's Internet 
environment, a security approach based on ``user beware'' is 
unacceptable. The systems are too complex and the attacks happen too 
fast for this approach to work. Fortunately, good software engineering 
practices can dramatically improve our ability to withstand attacks. 
The solutions required are a combination of the following:

 Virus-resistant/virus-proof software. There is nothing intrinsic 
        about computers or software that makes them vulnerable to 
        viruses. Viruses propagate and infect systems because of design 
        choices that have been made by computer and software designers. 
        Designs are susceptible to viruses and their effects when they 
        allow the import of executable code, in one form or another, 
        and allow that code to be executed without constraint on the 
        machine that received it. Unconstrained execution allows 
        program developers to easily take full advantage of a system's 
        capabilities, but does so with the side effect of making the 
        system vulnerable to virus attack. To effectively control 
        viruses in the long term, vendors must provide systems and 
        software that constrain the execution of imported code, 
        especially code that comes from unknown or untrusted sources. 
        Some techniques to do this have been known for decades. Others, 
        such as ``sandbox'' techniques, are more recent.
 Dramatically reducing implementation errors. Most vulnerabilities in 
        products come from software implementation errors. They remain 
        in products, waiting to be discovered, and are fixed only after 
        they are found while the products are in use. In many cases, 
        identical flaws are continually reintroduced into new versions 
        of products. The great majority of these vulnerabilities are 
        caused by low level design or implementation (coding) errors. 
        Vendors need to be proactive, study and learn from past 
        mistakes, and adopt known, effective software engineering 
        practices that dramatically reduce the number of flaws in 
        software products.
 High-security default configurations. With the complexity of today's 
        products, properly configuring systems and networks to use the 
        strongest security built into the products is difficult, even 
        for people with strong technical skills and training. Small 
        mistakes can leave systems vulnerable and put users at risk. 
        Vendors can help reduce the impact of security problems by 
        shipping products with ``out of the box'' configurations that 
        have security options turned on rather than require users to 
        turn them on. The users can change these ``default'' 
        configurations if desired, but they would have the benefit of 
        starting from a secure base configuration.

              ENHANCING PREVENTION AND PROTECTION EFFORTS

    Addressing the threat of worms and viruses is not easy. With 
approximately 4,000 vulnerabilities being discovered each year, system 
and network administrators are in a difficult situation. They are 
challenged with keeping up with all the systems they have and all the 
patches released for those systems. Patches can be difficult to apply 
and might even have unexpected side effects. We have found that, after 
a vendor releases a security patch, it takes a long time for system 
operators to fix all the vulnerable computer systems. It can be months 
or years before the patches are implemented on 90-95 percent of the 
vulnerable computers. For example, the US-CERT still receives reports 
of outbreaks of the Melissa virus, which exploits vulnerabilities that 
are more than four years old.
    There are a variety of reasons for the delay. The job might be too 
time-consuming, too complex, or just given too low a priority. Because 
many managers do not fully understand the risks, they neither give 
security a high enough priority nor assign adequate resources. 
Moreover, business policies sometimes lead organizations to make 
suboptimal tradeoffs between business goals and security needs. 
Exacerbating the problem is the fact that the demand for skilled system 
administrators far exceeds the supply.
    In the face of this difficult situation, the US-CERT is working 
with the private sector to encourage system operators to take several 
critical steps.
    Adopt security practices: It is critical that organizations, large 
and small, adopt the use of effective information security risk 
assessments, management policies, and security practices. While there 
is often discussion and debate over which particular body of practices 
might be in some way ``best,'' it is clear that descriptions of 
effective practices and policy templates are widely available from both 
government and private sources.
    What is often missing today is management commitment: senior 
management's visible endorsement of security improvement efforts and 
the provision of the resources needed to implement the required 
improvements.
    Keep skills and knowledge current. System operators should attend 
courses that enhance their skills and knowledge, and they should be 
given the necessary time and support to do so. They need to keep 
current with attack trends and with tools that help them protect their 
systems against the attacks. The security problem is dynamic and ever-
changing with new attacks and new vulnerabilities appearing daily.
    Help educate the users of their systems. System operators must 
provide security awareness programs to raise users' awareness of 
security issues, improve their ability to recognize a problem, instruct 
them on what to do if they identify a problem, and increase their 
understanding of what they can do to protect their systems,

         RECOMMENDED ACTIONS--WHAT ELSE CAN THE GOVERNMENT DO?

    The founding of the National Cyber Security Division and the US-
CERT were critical first steps in the US government taking leadership 
over the cyber security of our nation. Government must continue to show 
leadership by implementing several key additional actions. These 
actions include:
    Provide incentives for higher quality/more security products. To 
encourage product vendors to produce the needed higher quality 
products, we encourage the government to use its buying power to demand 
higher quality software. The government should consider upgrading its 
contracting processes to include ``code integrity'' clauses--clauses 
that hold vendors more accountable for defects, including security 
defects, in released products and provide incentives for vendors that 
supply low defect products and products that are highly resistant to 
viruses. The lower operating costs that come from use of such products 
should easily pay for the incentive program.
    Also needed in this area are upgraded acquisition processes that 
put more emphasis on the security characteristics of systems being 
acquired. In addition, to support these new processes, acquisition 
professionals need to be given training not only in current government 
security regulations and policies, but also in the fundamentals of 
security concepts and architectures. This type of skill building is 
essential in order to ensure that the government is acquiring systems 
that meet the spirit, as well as the letter, of the regulations.
    Invest in information assurance research. It is critical to 
maintain a long-term view and invest in research toward systems and 
operational techniques that yield networks capable of surviving attacks 
while protecting sensitive data. In doing so, it is essential to seek 
fundamental technological solutions and to seek proactive, preventive 
approaches, not just reactive, curative approaches.
    Thus, the government should support a research agenda that seeks 
new approaches to system security. These approaches should include 
design and implementation strategies, recovery tactics, strategies to 
resist attacks, survivability trade-off analysis, and the development 
of security architectures. Among the activities should be the creation 
of

 A unified and integrated framework for all information assurance 
        analysis and design
 Rigorous methods to assess and manage the risks imposed by threats to 
        information assets
 Quantitative techniques to determine the cost/benefit of risk 
        mitigation strategies
 Systematic methods and simulation tools to analyze cascade effects of 
        attacks, accidents, and failures across interdependent systems
 New technologies for resisting attacks and for recognizing and 
        recovering from attacks, accidents, and failures
    Acquire and foster more technical specialists. Government 
identification and support of cyber-security centers of excellence and 
the provision of scholarships that support students working on degrees 
in these universities are steps in the right direction. The current 
levels of support, however, are far short of what is required to 
produce the technical specialists we need to secure our systems and 
networks. These programs should be expanded over the next five years to 
build the university infrastructure we will need for the long-term 
development of trained security professionals.
    Provide more awareness and training for Internet users. The 
combination of easy access and user-friendly interfaces has drawn users 
of all ages and from all walks of life to the Internet. As a result, 
many Internet users have little understanding of Internet technology or 
the security practices they should adopt. To encourage ``safe 
computing,'' there are steps we believe the government could take:

 Support the development of educational material and programs about 
        cyberspace for all users. There is a critical need for 
        education and increased awareness of the security 
        characteristics, threats, opportunities, and appropriate 
        behavior in cyberspace. Because the survivability of systems is 
        dependent on the security of systems at other sites, fixing 
        one's own systems is not sufficient to ensure those systems 
        will survive attacks. Home users and business users alike need 
        to be educated on how to operate their computers most securely, 
        and consumers need to be educated on how to select the products 
        they buy. Market pressure, in turn, will encourage vendors to 
        release products that are less vulnerable to compromise.
 Support programs that provide early training in security practices 
        and appropriate use. This training should be integrated into 
        general education about computing. Children should learn early 
        about acceptable and unacceptable behavior when they begin 
        using computers just as they are taught about acceptable and 
        unacceptable behavior when they begin using 
        libraries.<SUP>1</SUP> Although this recommendation is aimed at 
        elementary and secondary school teachers, they themselves need 
        to be educated by security experts and professional 
        organizations. Parents need be educated as well and should 
        reinforce lessons in security and behavior on computer 
        networks.
---------------------------------------------------------------------------
    \1\ National Research Council, Computers at Risk: Safe Computing in 
the Information Age, National Academy Press, 1991, recommendation 3c, 
p. 37.
---------------------------------------------------------------------------
    The National Cyber Security Division (NCSD), formed by the 
Department of Homeland Security in June 2003, is a critical step 
towards implementation of these recommendations. The mission of NCSD 
and the design of the organization are well-aligned to successfully 
coordinate implementation of the recommendations that I have described 
here. However, implementing a ``safer-cyberspace'' will require, the 
NCSD and the entire Federal government to work with state and local 
governments and the private sector to drive better software practices, 
higher awareness at all levels, increased research and development 
activities, and increased training for technical specialists.

                               CONCLUSION

    Our dependence on interconnected computing systems is rapidly 
increasing, and even short-term disruptions from viruses and worms can 
have major consequences. Our current solutions are not keeping pace 
with the increased strength and speed of attacks, and our information 
infrastructures are at risk. Solutions are not simple but must be 
pursued aggressively to allow us to keep our information 
infrastructures operating at acceptable levels of risk. We can make 
significant progress by making changes in software design and 
development practices, increasing the number of trained system managers 
and administrators, improving the knowledge level of users, and 
increasing research into secure and survivable systems. Additional 
government support for research, development, and education in computer 
and network security would have a positive effect on the overall 
security of the Internet.

[GRAPHIC] [TIFF OMITTED] T0727.005

[GRAPHIC] [TIFF OMITTED] T0727.006

[GRAPHIC] [TIFF OMITTED] T0727.007

[GRAPHIC] [TIFF OMITTED] T0727.008

    Mr. Upton. Thank you very much.
    Mr. Silva.

                   STATEMENT OF KENNETH SILVA

    Mr. Silva. Good morning Mr. Chairman, other distinguished 
members of the subcommittee. We at VeriSign are honored to have 
the opportunity to provide our views on this very important 
subject of computer viruses and how we detect their 
proliferation across the Internet by watching our information 
networks.
    VeriSign is uniquely situated to observe the continuing 
assaults on our information infrastructure. VeriSign's security 
organization provides authentication, secure credit card 
processing, fraud protection, managed security services and a 
range of other services. Our telecommunications services group 
provides the essential signaling and switching services to make 
today's digital telephony, both wired and cellular, possible.
    Our naming and directory services includes VeriSign's 
computer infrastructure dedicated to the management of the 
Domain Name system of the Internet, including the A and J root 
servers, the top of the DNS tree.
    Since 2000, I have had the privilege of serving both 
Network Solutions and now VeriSign as manager of the resources 
dedicated to maintaining security of these complex technology 
assets.
    The proliferation of worms and viruses is costing our 
Nation's companies billions of dollars. As you have already 
pointed out this morning, some examples of these costs--and 
these are just estimates that have been published--Klez, about 
$9.5 billion; Love Bug, about $9 billion; Code Red, $2 billion; 
Slammer, $1 billion; Sobig.F and Blaster combined, somewhere in 
the neighborhood of $3.5 billion--and this is just in the month 
of August alone for Blaster and Sobig. This, coupled with 
increasingly costly regulatory compliance, is a tremendous 
burden on our economy and the strength of our industry.
    Today, despite widespread perceptions that Internet-related 
activity has slowed since the bubble burst this March 2000, 
Internet usage has in fact continued to grow at impressive 
rates. This is best illustrated by the growth in Internet 
Domain Name Systems' resolutions. VeriSign's data show that 
Doman Name resolutions grew by 51 percent year over year 
between 2002 and 2003. For e-mail alone, that actually grew 245 
percent over the same time period. Currently, VeriSign 
processes over 10 billion Internet Domain Name queries a day on 
average, which is more than three times what it was in 2000.
    This growth in Internet usage has been outpaced, 
unfortunately, by an increase in security and fraud threats, 
which are increasing both in number and complexity. The number 
of security events per device managed by VeriSign's managed 
security services grew a hundred percent between May and August 
2003. From a geographical perspective, the United States 
continued to be the leading source of these threats to the 
Internet, accounting for nearly 81 percent of those events.
    The Sobig.F e-mail worm, released in August 2003, provides 
a clear example of the increasing complexity of security 
threats. This worm was hard-coded to access the Doman Name 
system root servers, bypassing the Doman Name servers run by 
enterprises. As a result, VeriSign recorded a 25fold increase 
in peak e mail related DNS traffic on its routes when the worm 
was active.
    We are also seeing that Internet fraud is growing rapidly 
as well. Data from the fraud prevention system indicates that 
6.2 percent of e-commerce transactions in the United States 
were potential fraud attempts. Over 52 percent of those fraud 
attempts originate from outside of the United States.
    There is increasing evidence of overlap between 
perpetrators of Internet fraud and security attacks. Analysis 
of the data shows an extremely high correlation, about 47 
percent, between sources of fraud and sources of other 
security-related attacks. Attackers who gain control of 
Internet host machines are using these compromised hosts for 
both security attacks and fraudulent e-commerce transactions.
    Let me now explain how there three myths in our current 
state of cybersecurity that must be addressed.
    Myth No. 1. The real problem on our networks is not 
proliferation of worms, virus attacks, identity theft or even 
spam.
    Let me explain this point. The proliferation of worms, 
viruses, ID theft and spam is not the problem. All of these, 
while each extremely serious, are only symptoms of a much 
larger problem that we have today of a highly attractive and 
vulnerable network across our computer networks.
    Myth No. 2. The solution to this problem is to require more 
rigorous software design to protect individual systems.
    Many are tempted to demonize the software vendors and other 
members of the network community for viruses, worms and 
attacks. We believe that we must resist this temptation. The 
idea that somehow if only the operating system vendors made 
bullet-proof operating systems and applications all Internet 
security problems would evaporate is purely fiction. The 
reality is that the weakest link in computer security remains 
the end users. Many of the worms and viruses take advantage of 
human behavior and exploit it in order to spread the virus.
    Myth No. 3. The objective is a network so secure that it 
can withstand the evolving and ever more sophisticated 
assaults.
    The point is not to prevent every attack but to make sure 
that no attack succeeds in bringing down the institution. The 
point is not to be blindly secure but rather be thoughtfully 
survivable.
    We must stop believing that firewalls, intrusion detection 
systems and log monitoring alone are adequate security. These 
are only tools of security. A comprehensive approach that 
entails those tools, as well as network intelligence on 
impending or eminent attacks is the only viable solution for 
success. If we consider this a war on cyberattacks, then we 
must treat it as such. No military commander would suggest that 
his troops simply wait in foxholes and return fire when fired 
upon. They would insist on early warning systems and detailed 
intelligence about their targets and movements. This is the 
direction we must head for the war on cyberattacks.
    In conclusion, the solutions to our cybersecurity challenge 
require three commitments.
    First, we must provide education to all users to make the 
investments in hygiene practices and tools necessary and 
appropriate to their status on the Internet.
    Second, we must provide incentives to infrastructure 
custodians to maintain the investments in research and 
development to provide the innovative tools that meet the ever-
evolving threat of our networks from many sources we have heard 
about today.
    Last, we must provide government at the national and 
international levels the forensic tools, investigative 
training, investigative powers and early warning systems.
    We believe that these actions will improve the overall 
health and well-being of the Internet, but none are magic 
solutions or silver bullets. True long-term health and well-
being of our information systems will take time and everyone's 
efforts. Again, this is as much a responsibility of people as 
it is technology.
    Thank you, Mr. Chairman and members of the committee, for 
the opportunity to testify before you today.
    [The prepared statement of Kenneth Silva follows:]

   Prepared Statement of Kenneth Silva, Vice President, Networks and 
                        Security, VeriSign, Inc.

    Good morning Mr. Chairman and distinguished members of the 
Subcommittee. My name is Ken Silva and I am Vice President for Networks 
and Security of VeriSign, headquartered in Mountain View, California.
    We at VeriSign are honored to have the opportunity to provide our 
views on the very important subject of Computer Viruses and how we 
detect them proliferating across the internet by watching our 
information networks.
    VeriSign is uniquely situated to observe the continuing assaults on 
our information infrastructure. Our company provides industry-leading 
technologies in three relatively distinct--yet interrelated--lines of 
business. Each of the three serves an important role in the rapidly 
converging infrastructures that support communication and electronic 
commerce around the globe.
    VeriSign's security organization provides encryption, 
authentication, secure credit card processing, fraud protection and 
detection, managed network security services and a range of other 
services that enable e-commerce, e-government and the over-all secure 
Internet experience that hundreds of millions of users around the globe 
have come to rely on.
    VeriSign's second line of business is our Telecommunications 
Services group provides the essential signaling and switching services 
that make today's digital telephony--both wired and cellular--possible. 
This includes features like call waiting and forwarding, wireless 
roaming and the soon-to-be available wireless number portability.
    Our third major line of business is now known as ``naming and 
directory services,'' and includes VeriSign's computer infrastructure 
dedicated to the management of the Domain Name system of the Internet, 
including our stewardship of the A- and J-root servers--two of the 
thirteen computers around the globe that represent the top of the 
pyramid of the Internet's dispersed hierarchy. This is the part of the 
infrastructure of the Internet that allows each one of you as you type 
in www.house.gov into your web browser and be instantly connected to 
one unique computer from among the hundreds of millions on the network. 
VeriSign also manages the .COM and .NET top-level domains that for many 
have come to symbolize the essence of the Internet.
    Since 2000, I have had the privilege of serving both Network 
Solutions and now VeriSign as manager of the resources dedicated to 
maintaining the security of these complex technology assets. On behalf 
of VeriSign, I also have the privilege of serving in a number of 
industry leadership capacities, including representing the company on 
working groups of the President's National Security Telecommunications 
Advisory Committee--the ``NSTAC'', working groups of the NRIC, which 
advises the Federal Communications Commission, and as a board member of 
both the Internet Security Alliance and the ``IT ISAC''--the 
Information Technology sector's Information Sharing and Analysis 
Center.
    The proliferation of worms and viruses is costing our nation's 
companies billions of dollars. Some examples of worm costs are; Klez--
$9.5 Billion, Love Bug--$9 billion, Code Red--$2.5 billion, Slammer--$1 
Billion, and Sobig.F and Blaster combined were anywhere from $3.5-7 
Billion in August alone. This coupled with increasingly costly 
regulatory compliance is a tremendous burden on our economy and the 
strength of our industry.
    In discussing this topic of the proliferation of worms, viruses and 
hacking attacks, I want to address three key cyber security myths that 
exist today. But before I discuss these myths, I'd like to begin first 
with a picture of what we are seeing on the network from our unique 
perspective as one of the Internet's stewards.
    Today, despite widespread perceptions that Internet-related 
activity has slowed since the ``bubble'' burst in March 2000, Internet 
usage has, in fact, continued to grow at impressive rates. This is best 
illustrated by the growth in Internet Domain Name Systems' resolutions. 
VeriSign's data show hat Domain Name resolutions grew by an average 51% 
between August 2002 and August 2003. Domain Name resolutions for e-mail 
grew by 245% in the same time period. Currently, VeriSign processes 
over 10 billion Internet Domain Name queries a day on average, which is 
more than 3 times the daily volume in 2000.
    This growth in Internet usage has been outpaced by increased 
security and fraud threats, which increasing both in number and 
complexity. The number of security events per device managed by 
VeriSign grew on average by 99% just between May 2003 and August 2003. 
From a geographical perspective, the United States continued to be the 
leading source of threats to the internet, accounting for nearly 81% of 
security events.
    The Sobig.F email worm, released in August 2003, provides a clear 
example of the increase in complexity of security threats. This worm 
was hard-coded to access the Domain Name System root servers, bypassing 
the Domain Name servers run by enterprises. As a result, VeriSign 
recorded a 25-fold increase in peak e-mail related DNS traffic on its 
roots servers when the worm was active.
    We are also seeing that Internet fraud is growing rapidly as well. 
Data from VeriSign's fraud prevention systems indicate that 6.2% of e-
commerce transactions in the United States were potential fraud 
attempts. Over 52% of fraud attempts originate from outside the United 
States.
    There is increasing evidence of overlap between perpetrators of 
Internet fraud and security attacks. Analysis of VeriSign's data shows 
extremely high correlation (47%) between sources of fraud and sources 
of other security attacks. Attackers who gain control of Internet host 
machines are using these compromised hosts for both security attacks 
and fraudulent e-commerce transactions.
    Let me now explain how there are three myths in our current state 
of cyber security that must be addressed.

Myth #1: The real problem on our networks is a proliferation of worms, 
        virus attacks, identity theft or even Spam.
    Let me explain this point. The proliferation of worms, viruses, ID 
theft or even Spam is not the problem. All of these--while each 
extremely serious--are only symptoms of a much larger problem that we 
have today of a highly attractive vulnerability across our computer 
networks. Identity thieves, corporate saboteurs, spammers, and 
mischievous hackers exploit this vulnerability. That vulnerability must 
be addressed through changed behaviors, both by users and by Internet 
infrastructure stewards.
    Simply put, we all have a shared responsibility as users to 
uniformly deploy better security hygiene. Whether we are a large e-
commerce dependent business or individuals, we can and should do more. 
At the most basic level, every individual user can contribute to 
improve security by taking basic steps toward improved security. These 
prescriptions are well known and widely distributed--yet far too few 
actually engage even in the most simple, low-cost and no cost measures 
such as: using passwords and changing them regularly; using anti-virus 
software and updating it regularly; patching operating systems; getting 
firewalls and using them; and if you have an always on network 
connection, turn it off when not using it.
    These simple, low cost measures are not a prescription for 
guaranteed network security. But they are easy steps every user can 
take to increase their own security posture. By doing so, we improve 
the overall resilience of the network to attacks. Such measures will 
strengthen the networks weakest links and those exploited by hackers. 
When taken, these steps to reduce the population of targeted computers 
a virus can successfully invade.

MYTH #2: The solution to this problem is to require more rigorous 
        software design to protect individual systems.
    Many are tempted today to demonize software vendors and other 
members of the network community for viruses, worms and attacks. We 
believe we must resist this temptation. The idea that somehow if only 
Microsoft made bulletproof operating systems and applications all 
Internet security problems would evaporate is purely fiction. This type 
of finger pointing is often misplaced and in most cases does more harm 
than good. It is all too simple to blame the operating system 
manufacturer for flawed code or the network providers for not securing 
their networks. Many of the worm attack not only popular operating 
systems, but open source software as well.
    This second myth of software user culpability is another area of 
user responsibility at the consumer and commercial level. This area 
involves what is called ``patch management''--a catch phrase to 
describe the very important act of maintaining current release levels 
of software and installing and configuring them appropriately. Only in 
this way with the benefits of discovered, reported and fixed 
vulnerabilities that have been addressed through software research and 
development be put to use on the network.
    For the networks stewards such as VeriSign, this area is a crucial 
aspect of an overall cyber security strategy. Over the past few years 
in a down economy, we have invested tens of millions of dollars in 
equipment to provide the massive headroom of servers and storage to 
withstand unexpected attacks of untold dimensions. At the same time, we 
also have a strong commitment to fundamental innovations that will 
bring improved, increasingly secure tools to the broad community of 
network users.

MYTH #3: The objective is a network so secure that it can withstand the 
        evolving and ever more sophisticated assaults.
    The need to achieve an impenetrable network belies the fact that 
even if we succeed in scaring away many of the most opportunistic 
exploiters by better and broader deployment of enhanced security tools; 
there is still the likelihood that some attacks will succeed. To this 
point, we must heed the words of Julia Allen and other colleagues at 
the Carnegie Mellon's Software Engineering Institute: the point is not 
to prevent every attack but is to make sure that no attack succeeds in 
bringing down the institution. The point is not to be blindly secure, 
but rather to be thoughtfully survivable.
    In the final analysis, all of us must strive for a system of 
operating principles that means that no attack will succeed in 
disabling the user or its institution.
    We must stop believing that firewalls, intrusion detection systems 
and log monitoring is adequate security. These are only tools of 
security. A comprehensive approach that entails those tools, as well as 
network intelligence on impending or imminent attacks is the only 
viable solution for success. If we consider this a war on cyber 
attacks, then we must treat it as such. No military commander would 
suggest that his troops simply wait in foxholes and return fire when 
fired upon. They would insist on early warning systems and detailed 
intelligence about their targets and movements. This is the direction 
we must head in the war on cyber attacks.
    In conclusion, the solutions to our cyber security challenge 
require three commitments.
    First, we must provide incentives to all users to make the 
investments in hygiene-practices and tools necessary and appropriate to 
their status on the Internet.
    Second, we must provide incentives to infrastructure custodians, 
such as VeriSign, to maintain the investments in research and 
development to provide the innovative tools that meet the ever-evolving 
threat to our networks from the many sources we have heard about today.
    Last, we must provide government at the national and international 
levels with both forensic tools and investigative training and powers 
to reach those who are attacking our networks, and through those 
attacks seek to impact our way of life and our opportunity to 
contribute to better lives around the world.
    VeriSign believes that these actions will improve the overall 
health and well being of the Internet, but none are magic solutions or 
silver bullets. True long term health and well being of our information 
systems will take time and everyone's efforts. Again, this is as much a 
responsibility of people as it is of technology.
    Thank you Mr. Chairman and members of the committee for the 
opportunity to testify before you today.

    Mr. Upton. Thank you.
    Dr. Hancock.

                  STATEMENT OF WILLIAM HANCOCK

    Mr. Hancock. Thank you, Mr. Chairman.
    My name is Dr. Bill Hancock. I am the Vice President of 
Security and Chief Security Officer of Cable & Wireless, a 
large international telecommunications and hosting company. I 
am Chairman of the National Reliability and Interoperability 
Council Focus Group 1B on cybersecurity, a federally authorized 
council of advisors to the FCC; and I am also the Chairman of 
the Board of the Internet Security Alliance and appear before 
you here today on behalf of the nearly 60 members of the 
Internet Security Alliance.
    I am pleased to note that four of the five witnesses that 
we have before you here today are also members of the Internet 
Security Alliance, testifying further proof that the Internet 
Security Alliance has a convicted and overarching concern with 
security on the Internet and through its member companies.
    Among the beliefs of the NIS Alliance is the Internet is 
primarily owned and operated by private organizations and 
therefore it is the private sector's responsibility for 
aggressively securing the Internet environment.
    Information security on the Internet is grossly inadequate. 
This is proven over and over again by different types of 
attacks and malfeasance that occurs.
    A great deal of security requirements--enhancements, excuse 
me--can occur through application of basic technologies and 
through advanced education and security awareness.
    Technology, while critical to the security industry, will 
not be enough to provide a safe and secure Internet 
environment.
    To improve overall cybersecurity, creative structures--you 
have to excuse, Mr. Chairman. I am legally blind, and therefore 
it takes a minute----
    Mr. Upton. I understand. Don't worry.
    Mr. Hancock. Government is going to be a critical partner 
in--ultimately, a partnership between industry and the 
government is going to need to exist to be able to create a 
substantial difference and change in the current situation 
environments and Internet security.
    I am what we call in the security business a ``gray 
beard,'' which basically means that I have had enough stress 
and enough age to go along with it dealing with security 
problems from day to day. When a worm or a virus hits our 
infrastructure, invariably it is one of my customers that gets 
hit. My customers will then call us up, and we have to leap 
into action and go back and deal with the problem at hand.
    Sometimes the viruses and worms that we get are rather 
silly, such as one that was called Giggles some years ago that 
caused your PC to giggle incessantly. Some of them are very 
serious that cause the depositing of certain types of 
technologies onto the PC itself or onto any kind of machine 
that may be affected, and this includes Unix and Macintosh 
machines.
    Over time, the initial aspects of viruses were actually 
part of an elaborate game that was played at Bell Labs called 
CPU Wars. The purpose of CPU Wars was to go back and learn more 
about operating systems by infecting each others' machines. 
Over time, this has become a virus writing technique.
    Historically, viruses do not leap from machine to machine. 
Viruses infect and hurt the machine upon which they are on as 
they become malicious code over the years.
    Over time, other methods of moving this type of information 
around have occurred. In 1988, as a consultant to the National 
Aeronautics and Space Administration, I sat there with many of 
my partners totally appalled watching a worm, the first one 
that we know of, hit the Internet now known as the Morris worm 
and cause debilitating capabilities--or, excuse me, 
debilitating all functionality on the network itself.
    In those days, the number of people that were on the 
Internet numbered in the thousands; and getting folks on the 
phone to find out what was going on was rather trivial. Such is 
not the case today with over 655 million users of the Internet.
    With the conditions for development of viruses and worms 
remaining as is, I expect the following situations to develop 
in the very near future:
    No. 1, I believe that infection of what we call the 
invisible networking devices--invisible networking devices are 
those which historically have not been networked but are 
networked now. These include things such as DVD players. They 
include such thing as cable boxes. They include automotive 
electronic systems, radio frequency ID tag systems, even things 
like parking lot gate attendant systems. All these types of 
infrastructures now have network connections. All these types 
of infrastructures now are becoming more and more 
sophisticated, and all of them eventually will be affected by 
these type of operations, either by network outages or because 
of the infections themselves.
    Simultaneously, we all invest and use more and more 
commercial off-the-shelf technologies, and those technologies 
make for a common platform environment for viruses and worms to 
spread.
    We believe also that worms and viruses will result in 
hybrid attacks against communications infrastructures due to 
the lack of security controls and working protocols. Most 
protocols that are used in the case of Internet and other types 
of environments were developed in the 1970's, and these are 
your transport protocols, network routing protocols and so 
forth. Those protocols have not improved in security controls 
or capabilities in the last 30 years.
    We will also find that other types of building block 
protocols such as Abstract Syntax Notation .1 will also cause 
debilitating concern and debilitating results if this is used 
as part of a virus or a worm environment.
    Use of viruses and worms also we believe will be a problem 
in the near future for the simple fact that we know that nation 
states and other types of organized intelligence operations are 
using these types of things as test beds for potential 
cyberwarfare. The result is that, while there are an awful lot 
of viruses and worms that do attack the Internet and that do 
attack individuals and many of these are written by people who 
have ulterior motives in mind, there are some situations that 
have been documented that are done by nation states with the 
ultimate purpose of a precursor either to an attack, a 
terrorist operation or other types of malicious intent toward 
the US economy.
    While there are plenty of disturbing trends in virus 
development, we believe there are certain issues that the 
Internet Security Alliance is definitely concerned about.
    No. 1 is companies that provide critical services such as 
utilities, transport and petrochemical type of activities are 
connecting more and more of their closed circuit networks and 
closed circuit environments that have historically been on 
private networks are now being connected to public networks 
such as Internet. As a result, a worm or virus infestation will 
now go back over and infect these types of environments which 
can cause serious problems throughout the infrastructure.
    Home consumer PCs are becoming increasingly targeted by 
worms and viruses as a way to go back and attack other types of 
environments, and they become part or chains of attack systems 
known as Zombies. In these type of environments denial of 
service attacks and other types of worm attacks can have 
debilitating results. The cure for such infestations is a long 
way off, and it is going to require a partnership between the 
government and industry.
    We know that base research in network security 
improvements, improvement of security technologies, legislative 
efforts and other types of activities involved with the actual 
limitation of worms and viruses will have a long-term effect on 
trying to cure.
    One big problem that we keep running into that we are very 
concerned about is the fact law enforcement is typically 
hampered due a lack of tools, lack of investment and a lack of 
skill sets. Last year, for instance, there were very, very few 
virus writer arrests that were done worldwide. In fact, it 
numbers less than 10; and, at the same time, well over 100 to 
200 viruses a month are generated.
    Perhaps the most ironic part of viruses and worm 
infestation throughout the infrastructure is not the cost to 
repair or the cost to prevent the infection. It is the cost of 
entry point. In the case of biological, chemical or nuclear 
terrorism, the cost is either hundreds of thousands or millions 
of dollar, having to do with the purchase of the weapons, 
deployment, training of individuals. In the case of dealing 
with viruses and worms, the entry point costs to going back and 
infecting an infrastructure is very simple. It is a PC with an 
Internet connection.
    With that, Mr. Chairman, thank you very much.
    [The prepared statement of William Hancock follows:]

  Prepared Statement of William Hancock, Chairman, Internet Security 
                                Alliance

    Thank you Mr. Chairman. My name is Dr. William Hancock. I am Vice 
President of Security and Chief Security Officer of Cable & Wireless, a 
large multinational telecommunications and hosting company. I am 
Chairman of the National Reliability and Interoperability Council 
(NRIC) Focus Group 1B, Cybersecurity, a federally authorized council of 
advisors to the FCC. I am also the Chairman of the Board of the 
Internet Security Alliance. I appear here today on behalf of the nearly 
60 member companies of the Internet Security Alliance.
    The Internet Security Alliance was created in April of 2001, six 
months prior to 9/11 as a collaboration of the Computer Emergency 
Response Team Coordination Center (CERT/CC) at Carnegie Mellon 
University and the Electronic Industries Alliance as well as founding 
membership of well known international companies with high interest in 
security issues related to Internet commerce.
    I am pleased to note that four of the five witnesses before you 
this morning are members of the IS Alliance. This doesn't surprise me 
since members of the Alliance engage in a broad range of activities 
designed to enhance information security not just for themselves but 
for all of us who make up the world-wide Internet community.
    We are an international, inter-industry group of companies 
dedicated to expanding cyber security through information sharing, best 
practices, standards development, education and training, public policy 
development, international outreach to trusted partners and the 
creation of market-based incentive programs to improve information 
security.
    Among the core beliefs of the IS Alliance are the following:

1. The Internet is primarily owned and operated by private 
        organizations and therefore it is the private sector's 
        responsibility to aggressively secure the Internet.
2. Information security on the Internet is grossly inadequate.
3. A great deal of security enhancements can occur through application 
        of basic technologies and through enhanced education and 
        security awareness.
4. Technology, while critical to security, will not be enough to 
        provide a safe and secure Internet environment.
5. To improve overall cyber security, creative structures, thought and 
        incentives may need to evolve to provide continued security 
        assurance from the home PC to the large corporate network 
        environments.
6. Government is a critical partner, but, ultimately, the industry must 
        shoulder a substantial responsibility and demonstrate 
        leadership in this field if we are to eventually succeed.
    As what we in the security business call a ``grey beard,'' I have 
been a technical expert, ``insider'' and leader in the development and 
deployment of networking and security technologies for over 30 years. 
While such a span of time might tend to make one wax philosophical 
about viruses and worms, I tend to have a reality-based perspective as 
an active practitioner of security on one of the largest network 
infrastructures in the world. When worms and viruses hit 
infrastructures, to me it's not a statistic where some other company 
was taken to the pavement: it's often one of my customers where I and 
my security teams are expected to leap into action and solve the crisis 
at hand.
    As a security practitioner, I saw the technical games that were the 
genesis of modern computer viral infections. A computer virus is a man-
made code component that attacks computer software and causes a variety 
of debilitating conditions. Most folks in the security community 
attribute initial virus development as part of a technical game at Bell 
Labs in the late 1960's called ``CPU Wars,'' where developers of 
operating systems would deliberately create infestation code and place 
it on each other's machines. This action typically resulted in machine 
disruptions, funny messages on screens and other types of computing 
interruptions. There were strict rules, however--infestations had to be 
non-propagative, they could not cause destruction, stop applications 
from executing and they could not execute during normal hours of 
operations. Infestations had to be removable on demand. The initial 
purpose of such games and pranks were to learn, creatively, about how 
operating systems and computers worked and to share discoveries and 
ideas in a creative way.
    Such is not the case today.
    Viruses are a main staple of the hacking community as a method of 
disrupting programs and systems for a variety of purposes. Some virus-
writing efforts are for personal motivations to hurt a specific 
company, product or service. Some are written by skilled programmers 
with serious social development or emotional problems as a means of 
self-expression. Other viruses are written by ``gangs'' of programmers 
who have a specific political agenda or by those who have a need to 
express social will. Still other viruses are written by nation-states 
as part of their cyberwarfare development efforts to debilitate 
infrastructure in today's modern technology-dependent warfare 
environments. There are entities that write viruses under contract to 
attack competitors and their infrastructure. There are disgruntled 
employees who seek revenge on their former corporate masters. Viruses 
are written for a wide variety of reasons but are broadly categorized 
as being written for social dysfunctional reasons or for the purposes 
of economic disruption.
    Viruses do not self-propagate. They attack whatever system upon 
which they are activated and perform their damage on that system. Some 
virus writers have gotten creative with the explosive use of email and 
have devised ways for viruses to be propagated by email programs and 
systems. While it appears that a virus ``moves,'' the technical reality 
is that the virus does not self-propagate--it needs assistance from an 
external program such as e-mail or from a file transfer action to move 
from system to system. With the worldwide proliferation of email in the 
last five years, this makes movement of viruses from one system to 
another painfully trivial.
    Viruses have a variety of effects on businesses. Some are just 
annoying, such as one of the early viruses called ``giggle,'' which 
caused a PC to play a giggling voice continually through the PC's 
speakers for hours upon end. Other viruses destroy software at great 
corporate cost. One disgruntled employee case I worked on some years 
ago with the FBI involved an individual who was fired for hacking into 
the human resources system and changing his salary. After being fired, 
he went home, downloaded a piece of malicious code from an Internet 
underground hacking site and created a small program that would delete 
all contents of a user's hard drive. He then created a fake email 
account on a popular public email site and emailed the virus to all the 
staff at the company with a notation that the file contained a speech 
from the company's president and that it was being sent so that 
employees could hear it. Upon ``playing'' the file, the virus wiped out 
the hard drive. 1279 employees were sent the virus--710 ran the program 
and their entire systems had to be rebuilt. The overall cost to correct 
the damage caused by this one virus at this company was almost one 
million dollars. You can imagine the horrific cost to repair such 
damage at a large defense contractor, financial institution or 
manufacturing concern.
    Many more malicious and wide-spread viruses are seen ``in the 
wild'' on the Internet on a daily basis. Many are written with Russian, 
Chinese and other languages in comments in their code. Some have direct 
ties to organized crime, especially outside the US. Many are propagated 
from commonly known havens for virus writers where there is no fear of 
legal prosecution or where the technical skills of the government to 
prosecute are minimal or non-existent. Some estimates are as many as 
100 or more computer viruses or their variants are released world-wide 
on a monthly basis. The costs to protect against viruses and contain 
them when they hit can easily be quantified world-wide in the billions 
of dollars.
    In 1988, at the genesis of commercial use of the Internet, I was 
working at NASA's Langley facility as a consultant when the now-famous 
Morris worm hit the Internet. We all scratched our heads and initially 
thought there was a network infrastructure problem. What we did not 
know was that a young student at Cornell University had created a self-
replicating program which would move, very rapidly, from computer to 
computer, attempting to replicate itself as fast as possible throughout 
all connected computers. Back then, the Internet was small enough that 
all the major network control area personnel knew each other 
personally. We could all get on a conference call and discuss what was 
going on and coordinate a response. It caused such a serious outage of 
the Internet that many organizations, to include CERT/CC (represented 
here today), were founded to serve as an early-warning and solutions 
service for what was recognized as a new security threat with explosive 
growth potential. Needless to say, with the estimated 655 million 
worldwide users of Internet, getting together on a worm attack 
conference call has become rather problematic.
    A worm is typically an autonomous self-propagating program which 
travels from machine to machine, executing its payload. They do not 
need the assistance of other standard programs, such as email servers, 
and can move from system to system using an exploit in a program or 
protocol. A worm typically consists of a ``movement'' component, a 
propagation component and a payload, which may contain nothing at all, 
self-executing code or a malicious viral infection. Payloads seen in 
the last couple of years have consisted of a system subversion 
methodology called a ``root kit,'' where a hacker may later take total 
control of a system, using standard ``known'' viruses or defacement 
tools for automatically defacing websites. For instance, in May 2001, a 
hacking group that called themselves the Honkers Union of China defaced 
several hundred thousand websites using a worm that defaced the 
victim's website with a banner containing the hacker's name. The worm 
would then rapidly attempt to propagate itself to other sites.
    Most worms in today's environment propagate from system to system 
using known vulnerabilities and attempting to exploit a system based 
upon those vulnerabilities. In many cases, proper patching against 
known vulnerabilities or disabling technical components that are not 
needed for operations would prevent the attack and subsequent 
propagation of many worms. For instance, on January 25th of this year, 
a worm called ``Slammer'' attacked Internet systems via a known 
vulnerability in a popular database program--one for which the 
corrective patch had existed for over 7 months. Sites that were patched 
simply were not affected. Sites that blocked all network entry points 
for all programs, except those that were open for production programs, 
with technologies such as firewalls were similarly not affected. 
Unfortunately, much of the Internet community using the database had 
not properly applied those patches and they were severely debilitated 
for almost three days as a result of such negligence.
    Some worms have been written to attempt to hurt specific Internet 
addresses such as whitehouse.gov and software manufacturing companies. 
Studies of the various types of worms seen in the last two years 
suggest that some are being used to probe, experiment and test methods 
in which to infiltrate infrastructures throughout the world. Having 
reviewed many of them and examined the code personally, it is readily 
apparent to me that some were written by very professional, highly 
trained programmers who could have easily done substantially more 
damage than they did--if they wanted to. When professionally written 
worms appear, they gain extra attention from within the security 
community as it usually is an indication that someone very serious 
about their efforts is setting something up for later use in a more 
destructive way.
    The use of worm-based techniques of propagation, combined with 
virus development techniques, is causing new problems for companies and 
consumers alike. A good example is the recent and continuing 
propagation of the SoBig worm/virus technology that was and is still 
used by SPAMmers. SoBig and its variants are commonly used by SPAMmers 
to distribute a compact email server system to computers which 
previously did not have such capability. The unwitting victims, such as 
a broadband cable-connected home PC, are favorite targets of SPAMmers. 
By doing this, the numbers of email servers capable of sending SPAM to 
users on any given day has jumped from a couple of hundred thousand or 
so to several million. This type of technological approach to SPAMming 
has resulted in an exponential jump in SPAM emails, bandwidth 
consumption, and overhead (congestion) throughout the Internet.
    While most of the uses of viruses and worms are typically malicious 
or at least inconvenient in today's environment, this will change over 
time. Worm technologies are currently being viewed as a potential 
method to distribute critical security patches to systems on networks. 
Viruses can be used to distribute applications on some modern operating 
systems. Some countries have introduced legislation to outlaw all use 
of viruses and worms in all forms. This is a short-sighted and a 
simplex application of laws to a complex issue as the same technologies 
are being looked at, very seriously, for use in good--not evil.
    With the conditions for development of viruses and worms remaining 
as-is, I expect the following situations to develop in the near future:

 Infestations of ``invisible'' infrastructures. Most of us don't think 
        about the software inside a cell phone, automotive electronic 
        system, DVD player, radio frequency ID tag systems, parking lot 
        gate attendant systems, toll booths, wireless luggage bag-to-
        passenger matching systems, point of sale terminals, automatic 
        door openers, letter sorters, printing presses and many others. 
        As these technologies become more sophisticated, so do their 
        connectivity methods and operating environments. Companies that 
        produce such products migrate towards general-use commercial 
        off-the-shelf (COTS) technologies, which allow greater 
        opportunities for attack.
 Worm, virus and hybrid attacks against communications infrastructures 
        due to lack of security controls in base networking protocols 
        and ``building block'' protocols such as Abstract Syntax 
        Notation.1 (ASN.1). Much of the communications infrastructure 
        of the world is built on protocol security concepts developed 
        in the 1970's which do not translate well into today's 
        technical security needs.
 Use of viruses and worms by terrorist organizations as a way to 
        deteriorate, disrupt and disable economic and social support 
        systems in use by countries dedicated to anti-terrorist 
        efforts. As horrible and malicious as the various physical 
        attacks have been by terrorists against the United States, 
        those effects are minimal compared to a debilitating attack by 
        a worm against our financial, transport or utility 
        infrastructures.
 Accelerated sponsorship by hostile nation-states where the use of 
        cyber attack is a rapid method of furthering a country's 
        political and economic goals (cyber warfare and information 
        operations methodologies).
 Worms/viruses that ``jump'' between operating environments and 
        applications. Some have shown this capability already and it's 
        a rapidly growing trend.
    While there are many disturbing trends in virus and worm 
development, there are certain issues which IS Alliance is particularly 
concerned about:

1. Companies that provide critical services, such as utilities, 
        transport and petrochemical entities are interconnecting 
        historically isolated networks with Internet facilities. This 
        results in such networks being attacked and infested with 
        viruses and worms that cause the networks to become disabled 
        and this can critically affect infrastructure.
2. Home consumer PCs are being increasingly targeted by viruses, worms 
        and hybrids harnessed for use as part of world-wide malicious 
        ``chains'' of attack systems (known as Zombies) to effect 
        Distributed Denial of Service (DDoS) and worm attacks against 
        Internet connected entities
3. Research and development into new security encodings and methods in 
        base network protocols needs to be accelerated to help offset 
        the continued development of malicious code used to attack 
        infrastructure
4. Lack of law enforcement actions, globally, in the prosecution and 
        arrest of virus and worm developers. An extremely low number of 
        persons involved in the development and distribution of 
        malicious code are ever identified or prosecuted due to a lack 
        of technical tools, skills and personnel in most law 
        enforcement organizations.
5. Inclusion of basic system and application protection methodologies 
        by developers of same. Basic technologies such as polymorphic 
        checksums and cryptographic signature methods are well known 
        and available. Such technologies could be used by all manner of 
        developers to stop infestations and propagation of these 
        malicious code segments.
6. Lack of senior corporate management to act properly, responsibly, 
        rationally and quickly in the deployment of security 
        technologies to prevent infestations and propagation of 
        malicious code. Too many companies still do not invest in the 
        basics.
7. Acknowledgement that viruses and worms are truly a multinational 
        problem. While leadership by technologically advanced countries 
        is crucial, introduction of viruses and worms into network 
        infrastructure is easily done by the ``weakest link'' in 
        connectivity--a small country with no laws on cybercrime, no 
        assets to protect, and no national will or means to prosecute 
        perpetrators becomes the entry point for the world to be 
        attacked. Remember that access to a small country's 
        infrastructure does not require a physical presence--even a 
        dial-up connection from anywhere on the planet will do just 
        fine.
    The ``cure'' for infestations is a long way off and will require 
partnership with industry and government to solve. Base research in 
network security improvements, deployment of security technologies, 
legislative efforts to prevent criminal use of worms and viruses, 
improvement in operating systems to stop infestations, application-
level security technologies, law enforcement prosecution of cyber 
criminals involved in the creation and distribution of virus and worm 
technologies, improvement in base critical infrastructure and education 
and training through all levels of corporations, government and society 
will need to be combined to come up with effective eradication 
solutions.
    Perhaps the most ironic aspect of viruses and worms is not just the 
cost to repair or prevent infestation--it's not like biological, 
chemical or nuclear terrorism where thousands or millions of dollars 
are required to make such an attack happen. It's just the entry cost 
necessary to create and distribute worms and viruses: A PC with an 
Internet connection.
    With this, Mr. Chairman, ladies and gentlemen, I conclude my 
opening remarks. Thank you for your efforts and your leadership in this 
important topic.

    Mr. Upton. Thank you very much.
    Mr. Wong.

                    STATEMENT OF ARTHUR WONG

    Mr. Wong. Chairman Upton, members of the subcommittee, 
thank you for the opportunity to provide testimony on this 
important topic.
    My name is Arthur Wong, and I am the Vice President of 
Response for Symantec, the world leader in Internet security 
technology, providing a broad range of content and network 
security software and appliance solutions to individuals, 
enterprises and service providers.
    We are at an important juncture regarding cybersecurity. 
The threats we are seeing today are more sophisticated, more 
aggressive and are able to spread more rapidly than ever 
before. Equally important, the time it takes from the discovery 
of a new vulnerability to the time the vulnerability is 
exploited by the launch of a worm or a blended threat is 
rapidly shrinking. These two phenomena have made the Internet 
increasingly vulnerable to attack.
    For example, the Slammer worm attack from January of this 
year exploited a vulnerability discovered 6 months earlier. In 
August this year, the time window changed significantly with 
the release of the Blaster worm. Blaster was launched just 26 
days after the discovery of the vulnerability it exploited.
    We are already beginning to see even the early stages of 
what we call flash threats. These threats are near instant in 
their delivery and where human reaction time is probably not 
fast enough to prevent attacks that occur globally in minutes 
or mere seconds. The Slammer worm in January spread globally 
within 15 minutes.
    Let me give you some additional insight based on our 
recently released Internet Security Threat Report, a 
comprehensive semi-annual view of cybersecurity activity. The 
report documented over 1,400 new vulnerabilities, a 12 percent 
increase from last year. Sixty-six percent of all the new 
attacks this year documented were based upon highly severe 
vulnerabilities.
    Now, early warning and alerting capabilities, strong patch 
management and solid internal processes to respond to potential 
threat may be the difference between protecting critical 
systems and having them actually compromised.
    Let me now turn to two key areas, corporate security 
governance and user awareness.
    Corporate IT security cannot be an afterthought or an add-
on approach. It should be integrated into the overall 
management plan for an organization. In today's connected 
world, we rely heavily on our IT infrastructure to conduct 
business and should not be compromised due to lack of security 
measures.
    In developing a cybersecurity plan, we believe there should 
be a focus on the following areas: business continuity, 
regulatory compliance, enabling ``e'' initiatives and the 
establishment of a security policy and implementation plan. All 
of this must be done balancing risk and managing costs to 
ensure system availability and security.
    IT security requires a new level of governance at the most 
senior levels. It requires a top-down approach that reaches 
across an organization's departments and functions. It requires 
the creation of a culture of security.
    Let me now turn to education and awareness. A vulnerable 
system, regardless of whether it is a home user surfing the Web 
on a broadband connection, a wireless mobile computer at 
Starbucks, or a telecommuter working from home, all can open 
the door to a virus or worm attack.
    I would point out that we wrongly think of the individual 
user as merely a home user. Users are also employees, 
customers, business partners of enterprises and companies.
    We also need to educate employees through a well-organized 
security training program. Symantec has taken an active role in 
promoting a broad-based awareness campaign through our 
participation as a founding member of the National Cyber 
Security Alliance.
    In partnership with the Department of Homeland Security and 
the Ad Council, the Alliance recently announced a $1.8 million 
national cybersecurity awareness campaign of which we are a 
major contributor and supporter of. The program will be 
designed to educate the home and small business users on the 
importance of using anti-virus and firewall technology, as well 
as tips to defend against on-line fraud.
    A recent study by the National Cyber Security Alliance 
showed about 67 percent of high-speed Internet users do not use 
firewalls, and more than 60 percent do not regularly update 
their anti-virus software, confirming the need for this broad-
based campaign.
    Symantec has created a free tool on our Web site called 
Symantec Security Check that scans an individual system for 
vulnerabilities and viruses. We have conducted over 50 million 
scans in 2 years. Now, of the 3.9 million people who were 
scanned and agreed to submit their data to us, 24 percent did 
not have any virus protection whatsoever; and 9 percent of 
those that did have some type of anti-virus solution did not 
regularly update it. In addition, of the 1.35 million users who 
submitted their data to our virus detection scan, 35 percent 
were already infected with a virus or worm.
    The work by the National Cyber Security Alliance is a great 
example of the type of public-private partnership essential to 
promoting a safe and secure computing environment. Security is 
more than just installing a piece of software. It is the use of 
best practices, updating your anti-virus and practicing secure 
computing to ensure that systems are safe and the Nation's 
infrastructure is more secure.
    Thank you.
    [The prepared statement of Arthur Wong follows:]

 Prepared Statement of Arthur Wong, Vice President, Response, Symantec 
                              Corporation

    Chairman Upton, Ranking Member Markey, members of the Subcommittee, 
thank you for the opportunity to provide testimony today on computer 
Viruses. This is a timely and important topic and on behalf of 
Symantec, I appreciate your willingness to examine the issue and 
challenges surrounding it.
    Symantec, the world leader in Internet security technology, 
provides a broad range of content and network security software and 
appliance solutions to individuals, enterprises and service providers. 
The company is a leading provider of client, gateway and server 
security solutions for virus protection, firewalls and virtual private 
networks, vulnerability management, intrusion detection, Internet 
content and e-mail filtering, remote management technologies and 
security services to enterprises and service providers around the 
world. Symantec's Norton brand of consumer security products is a 
leader in worldwide retail sales and industry awards. Headquartered in 
Cupertino, Calif., Symantec has worldwide operations in 38 countries.
    We are at an important juncture with regard to cyber security. The 
threats we are seeing today are more sophisticated, more aggressive and 
are able to spread more rapidly than ever before. Equally important, 
the time from the discovery of a new vulnerability to the release of an 
exploit targeting that vulnerability is rapidly shrinking. I make the 
analogy of an exploit being an ``unlocked door'' of a building and an 
exploit being a break-in by someone who knows about the unlocked door. 
These two phenomena have made the Internet increasingly vulnerable to 
attack.
    We are already beginning to see the early stages of what are called 
flash threats, threats that are near instant in their delivery. These 
are threats in which human reaction time is probably not fast enough. A 
good example would be the recent Slammer worm, which, at it's a peak 
rate, infected 90 percent of the vulnerable systems in just 15 minutes. 
This speed of propagation, combined with the reduction of the time to 
exploitation, raises serious issues about the approach our nation is 
taking to protect our networks.
    We have taken the initial steps to improve our cyber security, from 
the largest corporations or infrastructures to the individual end user, 
but security is an evolving process and we must continue to be 
aggressive in our corporate IT security governance and in educating the 
individual user about good cyber security practices.
    Congress passed the Federal Information Security Management Act 
(FISMA) to improve the protection of government systems. This risk-
based management approach provides a guideline for Agencies to improve 
the protection of their critical assets.
    In the private sector, associations like the Business Software 
Alliance and TechNet are working on information security governance 
projects to assist the private sector on improving the protection of 
their infrastructure. I am pleased that Symantec is a part of both of 
those projects.
    I would also point to the upcoming Department of Homeland Security 
Summit scheduled for December. The summit's intent is to bring together 
government and industry leaders to work on implementing the National 
Strategy to Secure Cyberspace. This is a positive sign of the 
commitment to work together on this important issue.
    But more needs to be done. If anything, the recent attacks during 
the month of August served as a ``wake-up'' to all of us. In fact, the 
threat of major cyber attacks causing significant damage to our 
infrastructure is real and still exists today.
    Let me give some additional insight into the nature of the threats 
we are seeing with information from our recently released Internet 
Security Threat Report, a comprehensive semi-annual view of cyber 
security activity. The report covers information on vulnerability 
discoveries, malicious code trends and network-based attacks. I have 
included a copy of the report for submission with this testimony.
    The report represents the distillation of data from over 500 
Symantec managed security customers and over 20,000 registered sensors 
monitoring worldwide network activity in more than 180 countries. We 
would argue that it provides the most complete view of the health of 
the Internet available anywhere today.
    As I mentioned earlier, the time from vulnerability discovery to 
exploit is rapidly shrinking. For example, the SQL Slammer worm attack 
from January of this year, exploited a vulnerability discovered about 
six months earlier. Just a few months later that benchmark changed 
significantly with the release of the Blaster worm. This blended threat 
exploited a vulnerability just 26 days after disclosure.
    We have also seen that 64 percent of all new attacks targeted 
vulnerabilities less than one year old. Moreover, of all the new 
attacks documented in the first half of this year, 66 percent targeted 
what would be classified as highly severe vulnerabilities. Symantec 
documented over 1400 new vulnerabilities, a 12 percent increase from 
last year. In looking at the severity of these new vulnerabilities, we 
saw a 6 percent increase in those carrying a ``high'' severity rating 
and a 21 percent increase in those of ``moderate'' severity. These 
trends should be a major concern to all of us. As they continue, we 
will need new security paradigms to appropriately protect our cyber-
infrastructure
    Early warning and alerting capabilities, strong patch management, 
and solid internal processes to respond when a new vulnerability is 
discovered, may be the difference between protecting critical systems 
and having them compromised.
    With regard to malicious code trends, we observed a much more 
aggressive attack pattern. The Blaster worm, as an example, infected 
systems at an average rate of 2,500 computers per hour.
    We are also starting to see the use of viruses and worms to attack 
newer applications, such as instant messaging and peer to peer 
networking.
    In fact, of the top 50 malicious code submissions we received in 
our laboratory during the first half of this year, 19 used peer-to-peer 
and/or instant messaging applications--an increase of almost 400 
percent in just one year.
    So, the trends suggest that the overall rate of attack activity 
rose 19 percent. Companies experienced, on average, 38 attacks per week 
compared to 32 for same period last year.
    By highlighting some of these key findings, we see the importance 
of prioritizing cyber security at work and at home.
    I would like to focus on two key areas I believe are important to 
improving cyber security of our IT infrastructure: Corporate IT 
security governance and user awareness.
    Corporate IT security cannot continue to be an afterthought or add-
on approach. It should be integrated into the overall management plan 
for an organization. In today's connected world, we rely heavily on our 
IT infrastructure to conduct business, and it should not be compromised 
due to a lack of security measures.
    The resource constraints that many organizations are facing, 
coupled with the increasing rate of attacks, make this a daunting 
challenge. In many instances, these attacks are dealt with in a 
reactive rather than a proactive manner, making the task even more 
difficult.
    In developing a cyber security plan, we believe it should focus on 
the following areas: ensuring overall business continuity, adhering to 
regulatory compliance, enabling organizations for their ``e'' 
initiatives, and, establishment of a security policy and implementation 
plan. All of this must be done with a watchful eye on balancing risk 
and managing cost to ensure both system availability and security.
    In discussions with enterprise organizations, they cite three main 
drivers of the need to look at security in a more holistic manner. They 
include the disappearing perimeter, the increase in threats and the 
lack of security expertise.
    The question really is ``how do we adequately address these 
issues?'' I believe IT security requires a new level of governance at 
the senior level. It requires a top down approach that reaches across 
the organization's departments and functions. It requires the creation 
of a culture of security.
    IT governance must be a part of the overall governance of an 
organization. Doing so will ensure that IT is aligned with the 
organization to deliver value to its constituents, that IT resources 
are responsibly utilized and that IT risks are mitigated and managed 
appropriately. Taking this a step further, information security should 
also fit in this broader view. For example, information security 
reports should go to senior executives in an organization and 
information security audits should be part of the overall audit 
program.
    Furthermore, implementing security with real-time risk management 
is a key to preparation and protection. Organizations need to know 
where they are vulnerable, establish benchmark security levels and 
policies that will ensure compliance.
    Let me now turn to education and awareness. We have often heard the 
statement that we, as individual users of the Internet, have an 
obligation to protect our piece of cyber space.'' I firmly believe this 
is true.
    A vulnerable system, regardless of whether it is a home user 
surfing the web on a broadband connection, a wireless mobile computer 
at Starbucks, or a telecommuter working from home, all can open the 
door to threats.
    As we continue to see increased computing power for the individual 
user and continued adoption of high-speed connections, we must focus on 
providing a safe and secure environment for that user, which includes 
using a firewall and a regularly updated anti-virus program.
    I would point out that we often think of the individual user as 
only the home user, a view that is short sighted. As mobile computing 
becomes more pervasive we need to be aware at the enterprise of the 
potential holes to the network that could open up from customers, 
business partners or employees.
    The perimeter to the enterprise is disappearing and steps must be 
taken to protect those critical assets not just at the gateway, but at 
all the end-points or access points being used in today's environment.
    This means more than just implementing technology solutions. It 
means educating the employees through a well-organized security-
training program. Employees need to be armed with the knowledge to 
responsibly protect our networks.
    Symantec has taken an active role in promoting a broad-based 
awareness campaign through our participation as a founding member of 
the National Cyber Security Alliance.
    In partnership with the Department of Homeland Security and the Ad 
Council, the Alliance recently announced a $1.8 million national 
cybersecurity awareness campaign. Symantec is a major supporter of this 
effort along with other leaders from industry and government.
    The Alliance program will be designed to educate the home and small 
business users on the importance of using anti-virus and firewall 
technology, as well as tips to defend against online fraud. Further 
information from the Alliance can be found at www.staysafeonline.info.
    A recent study by the National Cyber Security Alliance confirms the 
need for this broad-based campaign. That study showed that about 67 
percent of high speed Internet users do not use firewalls and more than 
60 percent do not regularly update their anti-virus software.
    In addition to the National Cyber Security Alliance, Symantec has 
also created a tool that home users and small businesses can use. This 
tool, called Symantec Security Check, can be found at http://
www.symantec.com/securitycheck , It is free service that scans an 
individual's system for vulnerabilities. To date we have conducted over 
50 million scans. Of the 3.9 million people who were scanned and agreed 
to submit their data, 24 percent did not have any anti-virus 
protection, and 9 percent of those that did have some type of anti-
virus solution did not regularly update their definitions. In addition, 
of the 1.35 million users who agreed to submit their data to our virus 
detection scan, 35 percent were infected with viruses or worms.
    We need to broadly get the message out about the dangers and 
threats to our Internet infrastructure. The work by the National Cyber 
Security Alliance is a great example of the type of public-private 
partnership that is essential to promoting a safe and secure computing 
environment, and ultimately better protecting our critical 
infrastructure.
    Let me close by saying that education and awareness of the 
individual whether in the largest multi-national corporation, small 
business or the home user is critical. Security is more than just 
installing a piece of software, it is using best practices, updating 
your anti-virus and practicing safe and secure computing to ensure that 
systems are safe and the nation's infrastructure is more secure.
    Thank you.

    Mr. Upton. Thank you very much.
    Mr. Holleyman.

              STATEMENT OF ROBERT W. HOLLEYMAN, II

    Mr. Holleyman. Chairman Upton and members of the 
subcommittee, I appreciate the opportunity to testify today on 
behalf of the member companies of the Business Software 
Alliance. Our companies are the leading developers of personal 
computer software, enterprise software, as well as are leading 
hardware partners and e-commerce providers.
    I would like to address three points in my testimony today 
that I think are important as we look to this framework for 
protecting ourselves against viruses and worms not only here in 
the U.S. But internationally.
    First, we need to create an environment in which 
information security is a priority for every company, every 
government, every household and every developer; second, we 
need to enhance law enforcement's capabilities to treat 
destructive viruses as the serious crimes that they are; and, 
third, we need to build on our international cooperation using 
U.S. Leadership with key partners to recognize that viruses 
are, more often than not, international in scope.
    I believe the scope of the problem has been well 
articulated by witnesses on this panel before me, so I will not 
go back through that scope except to say that the number of 
attacks are growing and this is a growing problem.
    At the BSA, in our years working on the issue of 
cybersecurity, we focused on both industry-led best practices 
and legislative reforms. In the software industry, we have 
redoubled our efforts to build more reliable, better and more 
secure products. Security is the top priority for each and 
every CEO in the companies that we represent, and we believe 
that we have a responsibility and are stepping up to the plate 
to ensure that that culture of security is within all of our 
companies.
    We also believe that the culture of security needs to be 
extended as a senior management priority for every company. BSA 
has created a CEO-level task force on this issue. We want to 
ensure that private-sector participation is a key part of 
creating this culture of security, because indeed the private 
sector owns, operates and maintains nearly 90 percent of the 
information networks.
    BSA has a just-released Framework for Action that outlines 
specific roles for business unit heads, senior managers, CIOs 
and CEOs themselves. As part of that, we analyze the field. 
There is a lot of great information that has been developed by 
governments, by private-sector groups about what needs to be 
done. Much of that information, however, is very technical in 
nature, and part of what we need in closing these gaps is to 
create a framework so that not only the technologists can 
understand this but senior managers can understand this, and we 
also need to take this to the home and users of small 
businesses as well.
    As part of this, BSA has released a checklist that 
identifies the type of steps that need to be taken to improving 
cybersecurity for individuals, for small organizations, for 
medium- to large-sized enterprises and for government agencies. 
It recognizes, appropriately, that everyone has a role in this, 
but there are also levels of technical understanding that vary, 
and we would be happy to work with this subcommittee in making 
sure that those sorts of checklists are disseminated.
    We also are working in the area of law enforcement. Law 
enforcement must have tools that are at least equal to those of 
the cybercriminals that they are trying to combat. Many times 
cybercrime is not yet perceived as a real crime. There is 
insufficient deterrence for cybercriminals and potential 
terrorists.
    To deal with this, we have to raise awareness globally that 
computer attacks are serious. We need to ensure that law 
enforcement has the right tools. They need the right personnel, 
they need the right training, they need the right equipment. 
And, third, we have to deal with the cross-jurisdictional 
aspects of this, recognizing that many times these crimes need 
to be pursued across international borders.
    Congress has led the way through its efforts in the U.S. 
Such as the Cybersecurity Enhancement Act approved by Congress 
last year that increased penalties for people who commit 
cyberattacks. We need to ensure that those models are 
replicated around the world.
    Finally, this brings me to my last point, which is 
international cooperation. This is absolutely vital, and I 
believe this is a unique time for leadership by the U.S. 
Government in this area. Everyone working in this field, 
whether they are in industry or law enforcement or political 
leaders, recognize that we have only begun to scratch the 
surface in dealing with this problem. There are, however, only 
a handful of other governments around the world who have begun 
to focus the same level of attention that we have.
    The U.S. just reached an agreement with Japan, a memorandum 
of understanding on fighting cybercrime and cyberterrorism. The 
European Union is creating a network and information security 
agency. There is a great opportunity in working with Australia, 
another leader, and Canada, another leader, to create this 
international framework that allows us to deal with this as a 
matter of policy, a matter of law enforcement and a matter of 
awareness.
    As part of this, we want to ensure that the U.S. principles 
that ensure that there is private-sector leadership, that we 
develop flexible standards, that will allow new products to be 
innovative and to come on the marketplace can be deployed. We 
believe that through these partnerships of technology and 
throughout the private-sector leadership and the U.S. global 
effort we can make progress. At BSA, we are committed to 
working with government as part of this. We welcome the 
opportunity to testify today to be part of this dialog.
    The goal of today's hearing is to look at viruses and 
worms. The longer term goal is to look at what it takes to 
create a culture of security, to create more confidence in 
networks and information networks and to promote economic 
prosperity.
    Thank you.
    [The prepared statement of Robert W. Holleyman, II 
follows:]

  Prepared Statement of Robert Holleyman, President and CEO, Business 
                        Software Alliance (BSA)

    Good morning. Chairman Upton, Congressman Markey, Members of the 
Subcommittee, thank you for the opportunity to provide testimony on 
this important and timely subject: computer viruses. My name is Robert 
Holleyman and I am President and CEO of the Business Software Alliance 
(BSA).
    BSA represents the world's leading developers of software, hardware 
and Internet technologies. We are headquartered in Washington, D.C. We 
also have offices in Europe and Asia and are active in more than 65 
countries.
    Today I'd like to focus my remarks on laying out a prescription for 
prevention of cyber attacks and the three critical areas where 
technology companies and governments need to make progress in order to 
make our information networks safer:

 First, elevating information security as management priority for 
        every company.
 Second, enhancing law enforcement's capabilities to treat destructive 
        virus attacks as serious crimes, and
 Third, increasing international cooperation to better recognize that 
        viruses are, more often than not, international in scope.
    But before I talk about some of these crucial steps that the high-
tech industry and governments around the world need to take to mitigate 
our risks, let me begin by giving you a prognosis for the disease.
     According to preliminary data from a BSA survey of more than 
12,000 information security professionals, 65 percent of security 
professionals believe it is likely that their organization will be hit 
with a major cyber attack in the next 12 months.
     According to research by Symantec, an estimated 200-300 new 
viruses are discovered each month, bringing the total number of 
catalogued viruses and worms to over 65,000.
     Gartner has predicted that cyber crime will double or triple 
between 2001 and the end of this year. It also believes that by 2005, 
60 percent of the security breaches will be financially or politically 
motivated.
     The cost of viruses to American business is staggering. Business 
Week and Gartner report that viruses have already cost US businesses 
$13 billion this year alone.
    As the National Strategy to Secure Cyber Space has clearly 
articulated, the threats are real, and the solutions are not simple.
    At the Business Software Alliance, we have focused much of the last 
several years on working with businesses and governments to assist them 
in preparing against potential cyber attacks, and to institute--through 
both industry-led best practices and legislative reforms--sound 
policies to help eliminate some of this confusion and maximize our 
collective cyber preparedness.
    Our efforts have encompassed a wide array of topics--from 
encouraging industry leadership in best information security practices, 
to opposing technology-specific government standards that would stymie 
the dynamic evolution of security and anti-virus tools.
    Indeed, the software industry has redoubled its own efforts to 
build better, more reliable, and more secure products. I can tell you 
with complete certainty that security is the top priority for each and 
every CEO in our industry. Clearly, our industry has a critical 
responsibility to make the most secure products possible, and we are 
stepping up to the plate.
    At the same time, there are three areas where we, as a nation, must 
collectively turn our focus.

                    INFORMATION SECURITY MANAGEMENT

    First, it is imperative that cyber security become a senior 
management priority for every company. We need to fundamentally 
recognize that information security is not solely a technical issue, 
but a corporate management challenge that must be treated as such to 
make progress. That's why the BSA has created a CEO Task Force on this 
issue, which is working to elevate cyber security to the level of 
senior management. We must remember, after all, that the private sector 
owns nearly 90 percent of the nation's information networks.
    We are doing more than just preaching this message, however. The 
BSA task force recently released a preliminary Framework for Action 
that outlines specific roles for business unit heads, senior managers, 
CIOs, and the CEOs themselves. This whitepaper distilled the lessons 
contained in other policy reports, legislation, and guidelines and 
found broad consensus on what needs to be done.
    The more we do together to promote awareness of information 
security among corporate executives and accelerate adoption of 
effective security strategies, the more secure our nation will be.

                   EFFECTIVE LAW ENFORCEMENT ACTIONS

    The second area that needs immediate attention is law enforcement 
in cyber space. Determined, innovative hackers, virus writers and cyber 
criminals are constantly working to develop new ways to break into 
systems--just as criminals in the real world are continually inventing 
new types of fraud and finding new ways to break into cars or homes. 
But many cyber crimes are not yet perceived as real crimes. As a 
result, there is insufficient deterrence for these cyber criminals and 
potential cyber terrorists.
    Let me highlight three areas for further progress:

 First, we need to raise awareness globally that computer viruses, 
        worms and denial of service attacks are not clever acts of 
        mischief, but serious crimes that can cause major economic 
        damage, or worse. Just as in the offline world, when criminals 
        steal or attack online, authorities need to be able to find and 
        punish them.
 Second, we need to ensure that law enforcement has the resources it 
        needs--personnel, training, and equipment--so that cyber space 
        doesn't turn into a safe haven for hackers, virus writers and 
        other criminals. Governments need access to the same cutting-
        edge technologies that cyber criminals use, and the ability to 
        coordinate, investigate and enforce.
 Third, we need to ensure greater cross-jurisdictional cooperation in 
        investigating cyber attacks. Cyber security is inherently an 
        international issue that requires international solutions. Many 
        of the most recent cyber attacks were international in scope. 
        Continued collaboration, information sharing, and tough laws in 
        every country criminalizing cyber attacks are vital to ensuring 
        that law enforcement can help prevent crime and investigate 
        cyber criminals wherever they may hide.
    That brings me to my third and final point:
                       international cooperation.
    Our cooperative efforts need to extend far beyond law enforcement. 
Indeed, strong relationships are necessary with Europe and the still 
small number of countries around the globe that are taking a lead on 
these issues.
    I was in Brussels in June for a major forum that BSA co-organized 
with leading members of the European Parliament to discuss cyber 
security, and, specifically, the European Commission's proposed Network 
and Information Security Agency. It is crucial that the technology 
industry--and the U.S. government--work closely with the EU to ensure 
that the structure of this new agency--and any others that are 
ultimately created around the world--is flexible enough to provide 
rapid responses to ever-changing security threats. It also needs to be 
technology-neutral--relying on performance guidelines and best 
practices rather than technology-limiting standards.
    The U.S. has a unique opportunity to build new global partnerships 
and set baseline standards that reinforce the importance of technology 
neutrality and private sector leadership.
    In closing, let me affirm BSA's belief that successful, 
constructive partnership by both government and industry is necessary 
to effectively meet the global information security challenge.
    While today's hearing is about making progress in defending against 
computer viruses and worms, it is really about how we can build faith 
in our information networks to make them more valuable and effective. 
To do this, we need a shared commitment to reducing risks and 
increasing cooperation between businesses, network operators, law 
enforcement agencies and governments as a whole. The BSA stands 
committed to playing our part in helping ensure that the nation has a 
prescription, not just for immunizing ourselves against viruses and 
worms, but for enabling a safe and healthy digital world that fosters 
innovation, unleashes human potential, and spurs economic growth.
    Thank you and I look forward to your questions.

    Mr. Upton. I want to thank all of you for your fine 
testimony this morning.
    I just--you know, as we woke up to the news this morning, 
some of us saw it last night, about Microsoft's $5 million 
reward mechanism, I think we all applauded that. But, at the 
same time, we said, is this enough?
    When you talk about the number of culprits that were caught 
this last year, I think--Dr. Hancock, I think it was you that 
said less than 10, and they have all been pretty high-profile 
cases. The young man allegedly from Minneapolis, I think it 
was, a few others that we can remember.
    But when you think about the cost to the consumers and 
businesses as well as individuals, as we look at our own 
systems at night when we go home, with the anti-virus software 
packages that we all have, I would guess that it is probably 
almost every week that I see something pop up on my PC with 
some report or some request that is made of me to shut things 
down and restart that software. But with these number of 
attacks growing, is this a losing battle that we can't catch 
up?
    Mr. Hancock. Sir, I believe that it is not a losing battle, 
but it is a very, very serious one. I think that the thing that 
you need to understand is that even the people that are caught 
and the people that have been caught in the last 12 months in 
many cases were not the original writers of the virus or the 
worm in question. In many cases, they took the original and 
mutated it into something else that they themselves produced. 
This means that we are still having a great deal of trouble 
trying to find the original writers of many of these types of 
technologies that we see. We will continue to have that problem 
as long as there are safe havens around the world and there are 
places where prosecution does not happen. If there is no 
repercussion for going back and creating a malevolent 
environment, then there is no reason for someone to stop.
    The other problem that we run into is that in some cases 
there is serious motive involved with some of these reasons and 
efforts that people do these things. So one area to look at is 
to also go back and see how do you dry up the revenue source, 
and if you can dry up the revenue source a lot of this nonsense 
will stop.
    That is especially the case with spam. All spam involves 
some sort of revenue source, someone paying to have spam put 
out there or some sort of way to generate revenue. Most spam 
messages involve things like, you know, drug refills or 
potentially other ways to purchase illicit drugs. In those 
types of situations, there is a profit motive involved; and if 
you can dry up their profit motive you dry up the spam 
accordingly. So spam may use worm and virus techniques to get 
around, but it would stop a lot of it if there were ways to go 
back and dry up the ways that these people generate revenue for 
themselves.
    Mr. Upton. What is your--anyone else want to comment on 
that? Mr. Silva.
    Mr. Silva. Yeah. I would like to comment on the first part 
of that with respect to Microsoft's issuing a reward for this. 
I think it is a very commendable thing that they have done. But 
I think it is also a sign of the times, okay? I mean, this is 
really at a stage pretty much--it is real money. It is real 
money, but, you know, the tactics we are having to take now are 
similar to those of the old West, okay? We are having to offer 
rewards and bounties for, you know, the villains out there that 
are attacking our networks.
    I agree that we have to do that at this point in time, but 
it is a scary situation that we are in, that these are the 
tactics we have to resort to.
    Mr. Upton. What is your guess as to how many of these 
actually come from overseas? 50 percent? 25 percent? 80 
percent?
    Mr. Pethia. I don't certainly have a good guess at that. We 
have certainly seen historically at different points in time 
there would be an outburst of viruses coming from some 
particular part of the world. But I think if you look across 
time I don't know that there is any single source that stands 
out above any others.
    Mr. Hancock. I will comment, Mr. Chairman, that it is my 
personal experience with several of them recently that some of 
the more, shall we say, professionally written products that 
have come out and hit people in viruses and worms have had 
comments in foreign languages in them, specifically Russian and 
Chinese. In both of those situations, at least the Russian one, 
we were able to backtrack through our cyberattack tiger team 
that the worm itself originated from a machine in Australia 
which we were able to forensically examine. We found out that 
that machine had been broken into from a location in Russia. 
Upon further investigation with the Russian computer police in 
Moscow, it turned out that it was an organized crime operation 
in progress, where it just basically deposited it to work on 
the outside. But it was written, according to them, by a 
potentially organized crime unit in the Russian area.
    So we are starting to see a lot of those are being 
professionally written by people with skill. If you read the 
comments and you look at the code, they are written by people 
who know what they are doing and in some cases are actually 
written in terms of organized crime definitely outside the 
United States in many cases. But we have seen quite a few of 
them coming from the Chinese area and also coming from Russia.
    Mr. Wong. Chairman Upton, what we have seen--because we 
monitor over 20,000 devices worldwide in over 182 different 
countries in the overall scheme of attacks, we have seen that 
most of these actually originate in the United States attacking 
people, organizations and infrastructure in the United States. 
So whether these individual virus writers or these individual 
viruses or attacks have started somewhere else or not, the main 
thing that we see overall as a trend is that most of them start 
here. Most of them are targeted here.
    Mr. Upton. Thank you.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    Dr. Hancock, can you give us a little more detail on how 
spammers are currently using the Sobig worm months after it did 
such terrible damage to networks nationwide?
    Mr. Hancock. In terms of what, sir?
    Mr. Green. Well, in terms of how they continue to use--are 
they using or continuing to use the worm even after it was 
discovered?
    Mr. Hancock. Yes, sir, they are. In fact, I think the 
current variant is up to level G right now.
    I have, through my good friend, Commissioner Orson Swindle 
at the FTC, he asked me to prepare a talk last May on the 
future of spam. I have the dubious honor of now being labeled 
the ``prophet of doom'' by the FTC because I got up and said, 
here is how it is going to happen next and what is going to 
happen; and I predicted what Sobig turned out to be a full 4 
months before it hit the Internet.
    The bottom line of this is that what people are doing is 
that spam is a function of e-mail. To send an e-mail at any 
given time in the world, you have to have an open relay within 
an e-mail server. It has been estimated that at any given time 
there is about 100 to 150,000 of those that are open worldwide. 
The concept of Sobig is that you not use an existing open 
relay. Instead, you send software to a particular machine which 
then deposits an e-mail transmittal system onto a machine that 
did not have e-mail transmittal capabilities whatsoever, like 
your home PC.
    So what Sobig does that makes it very nasty is that, as it 
goes around, it infects different machines in a worm-like way. 
It then downloads a full e-mail service capability to that 
machine that could not previously generate e-mails. In other 
words, it becomes an e-mail server. The result is that Sobig 
and its variants have now come up to an estimated over 1 
million active open relays available at any given time, which 
means that spammers can use those on machines that they could 
previously not access because they were only limited to 
whatever open relays are out there.
    So the technology of Sobig basically provides--and there 
are other ones, too, besides Sobig--provides the ability for 
spammers to use worm technology and worm concepts to deposit 
malicious code on machines and turn those into spam relay 
systems. So Sobig does continue to be generated, the new 
versions. Those new versions find new ways to weasel themselves 
into different machines and deposit these kinds of spam relay 
software technology out there to increase the opportunity for 
spammers to send spam.
    Mr. Green. Do you think that any of the anti-spam 
legislation that regulates the unsolicited e-mail with 
effective law enforcement, the FTC, will help protect 
businesses from the fusion of the spam and the virus problem?
    Mr. Hancock. Sir, I am on record with the FTC as saying 
that I think it will have minimal effect, because the spammers 
will simply move offshore. There is no legislation in other 
countries.
    Mr. Green. Do you think, though, if we actually do 
something in the United States, as I think one of the witnesses 
mentioned earlier, then we have to deal with our other 
countries, our trading partners similar to what you dealt with 
the Russian computer police, for example?
    Mr. Hancock. Yes, sir. I think that that is a very good 
thing to do. But I will caution also, one of the areas that has 
historically been known for having a lot of problems with 
computer security is in Romania. I happen to know that--I have 
actually met with their one computer crime guy in all of 
Romania, and this poor individual is grossly overwhelmed. And 
when you start dealing with that kind of situation, I think 
that there is very good intent by other countries and our 
trading partners, but there is no investment in their own law 
enforcement, nor is there any investment in their own 
infrastructure to go back and prevent these kinds of things 
from happening. When you have one law enforcement guy in an 
entire country dealing with some of the worst problems that 
come out throughout the entire network infrastructure, it makes 
a losing proposition even if you go back and try to muscle that 
particular trade partner.
    So I am not defending them and I am not saying it is the 
right thing to do, but it is a reality.
    Mr. Green. And, again, everything starts with one step, I 
guess. So, you know, if you have a strong Federal law like we 
have some strong State laws, then we can deal with our trading 
partners. Again, Romania is a country that obviously wants to 
join the EU, and will have to comply with the same agreements 
that other countries do with the EU, along with trade with our 
own country. So at least we have that leverage.
    Mr. Hancock. No argument, sir. And I am not saying that we 
should not pass legislation in the United States or that we 
should not try to contain the problem here. I am simply stating 
the fact that what will happen and has happened with other 
types of situations where laws have been passed in a specific 
country is that the people that exercised the malfeasance just 
simply moved to another country.
    Mr. Green. But we shouldn't throw up our hands and 
surrender?
    Mr. Hancock. No, absolutely not.
    Mr. Green. Okay. Thank you.
    Mr. Upton. Mr. Deal.
    Mr. Deal. Thank you, Mr. Chairman.
    I want to try to get a handle on this in terms of why this 
is happening. For a long time I think many of us regarded this 
as some form of juvenile delinquency for computer geeks; that 
it was a form of graffiti that was just an act of vandalism. 
Obviously, with the magnitude of the impact that you have 
talked about, that even though that is a portion, I am sure, of 
it, I would like to know what you think the motivations for 
this problem really are.
    Dr. Hancock, you alluded to the issue of profit, profit for 
spammers, using this as a technique to bypass and get their 
information out. What other motives are there other than 
spammer profit? What are the motivations for this? There have 
been some allusion referenced perhaps to potential terrorism. I 
don't know that we have had specific examples of that being a 
motivation. But would the panel care to elaborate on what these 
motivations are? Something that is this big of a problem, there 
has got to be something other than just pure fun to see what 
kind of trouble you can cause in the universe. What are the 
motives?
    Mr. Hancock. If you would like to, sir, I can give a first 
stab and then invite the other panelists, because I am sure 
they have their opinions as well.
    It has been my experience--and I have been involved in over 
600 hacker prosecutions--that a vast majority of them are 
dysfunctional individuals. These are people who literally we 
bust them at 3 o'clock in the morning, because that is the best 
time to get them because they are the only ones awake in the 
house. These are people that have very serious social problems. 
They do not associate with other folks. It is a way of 
expressing themselves, using their intellect and using their 
capabilities. And that tends to be a very large percentage of 
what we run into.
    Another one is, you run into hacker gangs. There are folks 
out there that--such as Cult of the Dead Cow, Hacking for 
Gurlz, spelled G-U-R-L-Z, and these types of individuals that 
believe certain manifestos, and therefore they use these types 
of techniques to go back and further their manifestos.
    Hacking for Gurlz, for instance, has a manifesto that 
states that information has a soul and yearns to be free, and 
therefore what they do is they go back and attack in groups 
people and capabilities and corporate structures to turn 
information free, because they believe that your Microsoft Word 
file has a soul and needs to get out. And so there is that sort 
of mentality out there, and it really does exist and these 
people really believe these kinds of things.
    You have also got the other extremes that basically say 
that there is evidence that goes worldwide where virus attacks, 
worm attacks, spam attacks may be against competitors as part 
of a competitive function. And there are places on the Internet 
where you can go hire people that will go back and write things 
and produce spam and produce viruses and worms to go back and 
attack competitors or attack a competitive infrastructure. And 
that has been documented in other countries, and it has 
happened.
    There are other things that happen where you are dealing 
with kids that are just out there messing around. For instance, 
we have been documenting a lot of what we call script kiddie 
attacks. The bulk of them happen between 4 o'clock p.m. Pacific 
time on Friday and 9 o'clock p.m. Pacific time on Sunday, 
because every kid without a date starts picking on our network. 
So I am going to start a site called geekdate.com and try to 
get them some dates and leave us alone. But that is a different 
problem.
    But you will see this whole rash of things that are out 
there. And then about 5 percent of what we hear that goes on--
and I have some anecdotal evidence and also some direct 
evidence to this effect, nation states that are competitive to 
the United States or that do not feel politically aligned to 
the United States. And a good example of that is in May 2001, 
something called the Honkers Union of China launched a worm 
attack that basically disabled well over 300,000 Web sites with 
the defacement of Honkers Union of China banner across all of 
those. As part of a sympathetic attack, while the attack was in 
progress, Brazilian hacking teams got involved and started 
helping propagate the same worm and virus around, simply 
because the folks down there really don't think very highly of 
the United States in many case. And Brazil is becoming a very 
large place where you can get a lot of hacks, you can hire 
people, you can get these kinds of things out there.
    So there is an enormous range of reasons why people do 
these types of things. Some of them are profit-oriented, some 
of them are socially dysfunctional.
    Mr. Deal. Could I stop at that point just to ask a 
question, because it goes back to what Mr. Green had said 
earlier.
    Are we seriously pursuing efforts now to tie in our trade 
agreements or other negotiated agreements with other countries 
their requirement that they clamp down on these matters 
internally? For example, it would seem to me that it is not too 
far-fetched to say that we would build into trade agreements 
that this kind of activity coming from another nation is an 
unfair trade practice that could trigger sanctions in other 
areas if they don't do something about it and we can trace it 
to coming from their country.
    Are any groups pursuing those kinds of arguments, to say 
that that is the only way we can ever really get a handle on it 
because of the international nature of the entity?
    Mr. Hancock. Sir, I am not equipped to answer that 
question, so I will have to defer that to the other panelists.
    Mr. Silva. Well, I guess if you look at the spam problem 
individually, okay, I am not so sure that going after the 
people sending the spam is the answer as opposed to taking the 
site away that they are being directed to. Okay. The spam is 
usually, in many cases, directing to a Web site. It really 
doesn't matter who sent the mail. It really doesn't. The fact 
of the matter is that all of the spam is directing someone to a 
Web site. Take the Web site away, and the spam is meaningless 
anyway, and the purpose of sending it ceases to exist.
    So, you know, if we take sort of most of that away, then 
that takes the spam down a considerable amount, down to sort of 
the mail order fraud sorts of things and other things like 
that. So, go after sort of the originating source--or, I should 
say, the destination rather than the source of the spam, okay, 
because where the spam comes from I think matters not, and 
people will just come up with more creative ways of hiding 
where it is coming from. Even if we have trade sanctions, our 
ability to be able to track them could become more difficult.
    Mr. Deal. Are current laws adequately directed in that 
fashion?
    Mr. Silva. Absolutely not.
    Mr. Holleyman. Mr. Deal, if I may comment. When the 
President released in February this year the National Strategy 
to Secure Cyberspace, there is one section of that dealing with 
what we need to do internationally. One of the recommendations 
is to get more countries to join the Council of Europe Treaty 
on Cyber Crime. And so part of what we are doing, before we get 
to using trade sanctions, is holding out the type of models 
that we think are appropriate.
    This new agreement that the U.S. reached with Japan was the 
first formal MOU, as I understand it, between governments. I 
think there is a huge opportunity for leadership.
    And in response to the earlier question from Mr. Green, I 
think when you take a subset of this, which is spam, we do 
think that there is some appropriate legislation that could be 
useful that could then become a model for our trading partners. 
Clearly, none of this will be resolved overnight, but we should 
use every tool internationally. And I think there is a unique 
opportunity for U.S. leadership in this area, because the field 
is so fertile, and we are one of the handful of countries 
dealing with this in a serious, significant way.
    Mr. Deal. Thank you, Mr. Chairman.
    Mr. Upton. Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman. And thanks to the 
panel. And I did get to listen to Mr. Green and Mr. Deal's 
questioning, and I appreciate your forthright answers.
    And so as we look to a solution--because each of you in 
your papers talk about in the end what can be done. I find 
repeating themes of the trade agreements and education, 
international laws such as just mentioned by the President's 
recommendations in February, changes in software design, and 
incentives to infrastructure custodians, such as several of you 
represent, to help with research in this. And so I guess I 
would like to revisit with you how you would wish the Congress 
to proceed with any of these in sort of a sense of priorities 
given, you know, the skills and the abilities that we have.
    All of these papers are fantastic and your ideas are great, 
but how--could you help us focus now on how best for us to 
proceed in this matter that will be effective, efficient, and 
timely with the resources that we have? Anyone. And all of you, 
if you wish to comment.
    Again, I thank you for your thoughtful presentations and 
papers. They are outstanding.
    Mr. Holleyman. Let me just mention a couple things. One, I 
think there is an opportunity on the law enforcement side as 
part of the appropriations process to make sure that U.S. law 
enforcement agencies have the right personnel, the right 
training, the right equipment to deal with this, and that we 
arm our allies--the U.S. personnel who deal with our 
international allies to help train those folks as part of an 
international effort.
    I think second there is the effort by the U.S. Government 
to lead in terms of the U.S. Government's own attention to 
cybersecurity. The FSMA legislation that was passed last year 
has been a good model that we are now trying to deploy for the 
private sector. So we think that ensuring that Federal 
departments and agencies are also creating that culture of 
security is important.
    And, finally, I think it is building this culture of 
awareness. And that is, using every platform to talk about 
this, to create this culture of security, getting information 
into the hands of your constituents; so whether they are a 
small business, an individual, a large business, they 
understand what part they have to play in this. And as an 
industry, we are eager to work with you in making that 
information known.
    Ms. McCarthy. Thank you very much.
    Mr. Wong. Ms. McCarthy, part of it I think is having to do 
with an awareness campaign, making small steps now to bigger 
gains and bigger goals.
    I remember growing up, that when forest fires used to be a 
major problem, and we came up with the Smoky the Bear campaign. 
And since then, arguably, we have had less forest fires, except 
for recently in California.
    When Mr. Green had asked earlier why do we still get so 
much spam, why are there so many attacks after these things 
have already been discovered, well, even a very simple 
awareness issue is that it has been estimated that more than 60 
percent of the desktop computers out there do not either have 
antivirus software or updated antivirus software. So there is a 
big part of it that can be helped just by the awareness of 
having the right software or things that will detect some of 
these things that--the attacks that are coming.
    The awareness certainly starts from children, also through 
businesses and adults and home users and employees, where we 
can each actually secure our own individual piece of 
cyberspace, thus making all of cyberspace more secure. And that 
starts with education and awareness, and we can take those 
steps now.
    Ms. McCarthy. Thank you, Mr. Wong.
    Dr. Hancock.
    Mr. Hancock. I would have to agree with the panelists. I 
would also state that I believe that awareness, as Mr. Silva 
mentioned before, has to start at a very early age. And I will 
give just a quick anecdotal example.
    My oldest stepson is 32 years old and runs e-mail at one of 
the largest telcos now, and he has been around cybersecurity 
since age 11. My youngest son is 14; he has not known a day of 
his life without a computer around. And when he first started 
using the P-to-P-type of technology and copying music for free, 
we had to have a little lecture. But that sort of thing is very 
important, because by educating him, I found that he very 
quickly educated all his friends. And he runs around with about 
10 or 12 kids that are very much into cyberspace. One of these 
children just makes amazing Web sites for businesses at age 14.
    So I believe that early education in the K through 12 area 
is absolutely critical to going forward as a national plan.
    Simultaneously, though, I believe that we also have to be 
aware that we are not out of the woods when it comes to 
terrorism. Terrorism is going to use technology now and in the 
future to go back and further their goals. So one of the things 
we have to also keep in mind is that while we want to have a 
long-term relationship with our youth and basically bring them 
up the right way and teach them about security, we also have to 
simultaneously remember that there are adults out there that 
are going to use our current open infrastructure against us. 
And in some ways it can be rather devastating. Because of that, 
I believe that there is also a need to jump some legislation 
and to jump into some areas that may be not as well thought out 
as we would like, but at least can start to curtail some of 
these activities that are out there and start looking at some 
of these issues.
    Some technologies, such as a technique called 
steganography, are known to be used by the opposition. 
Steganography is where you take technology such as a Microsoft 
Word file, or take a drawing or perhaps an operational plan 
embedded into a graphic, post it on a Web site; someone else 
can download the graphic, it looks like a graphic, it feels 
like a graphic, but you are hiding the data within the graphic. 
And at that point you can extract operational orders, you can 
extract operational information. This type of activity goes on. 
That kind of activity has to stop. There are techniques out 
there right now such as polymorphic check songs using things 
such as cryptologic signatures that will stop that sort of 
thing from happening, to keep from using an open infrastructure 
in a negative way and by the terrorists either through viruses, 
worms, or other kinds of infestations like steganography.
    So I think it is a dual-pole problem. I think there is a 
long-term awareness problem that we have to deal with, but I 
also believe that simultaneously we have got to do something 
about some of the short-term issues and start taking some 
action; otherwise, we are not going to get on top of this.
    Ms. McCarthy. Thank you.
    Mr. Silva?
    Mr. Silva. I agree with Mr. Wong, that I think the 
education part of it is sort of the no-brainer thing and the 
low-hanging fruit right off the bat, okay? We teach our 
children in schools how to use computers, but it is not 
currently part of the curriculum to teach them how to use them 
safely, okay? As parents and teachers, we teach our children 
how to cross the street safely, but we don't necessarily teach 
them how to cross the Internet safely. So to the extent that 
the Federal Government provides some funding assistance to some 
schools, it would probably be worthwhile to direct some of that 
funding in the proper direction.
    Another thing I think that is very important is the 
Department of Homeland Security is very interested in 
developing an early warning system.
    Ms. McCarthy. Yes.
    Mr. Silva. And I think that Congress should support that 
wholeheartedly with as much vigor as is possible.
    Now, with respect to--there always seems to be this sort of 
come back to let us just write better software kind of thing. I 
think that is sort of beating a dead horse, and I think it is a 
no-win game, quite frankly. But as I am sure Mr. Holleyman 
would agree, while we have a number of antivirus solutions that 
need to be updated on a regular basis so registered users do 
update them on a regular basis, people who run Microsoft 
Windows, for example, the patches are available on a regular 
basis. The problem is that a large number of computers--and it 
is a shockingly large number of computers--are running software 
which is not registered software and was not legitimately 
acquired, so therefore not entitled to all of the updates, 
patches, et cetera. So we are still looking at a huge number of 
machines that even if properly--if the software manufacturers 
properly produce the patches, et cetera, there are still a huge 
number of computers that can't get those patches. So it is 
still a big target for anyone to hit.
    So just to close, I do believe that the education early 
warning systems are two very low-hanging pieces of fruit that I 
think we should dive right into.
    Ms. McCarthy. Thank you, Mr. Silva.
    Mr. Pethia. Let me be the contrarian for a moment. I agree 
that awareness and training are going to be important and we 
should certainly pay some attention there. But the probability 
that we can drag 150 million users up that learning curve in a 
short period of time I think is pretty small, especially when 
you think about this as an international issue. If we want to 
protect ourselves from getting spam attacks, we have to educate 
the planet, not just the people in the United States. So that 
is a huge, huge drop.
    I like to look for leverage points, and one of the leverage 
points I happen to think is possible in the short term--short 
term being over the next 5 years--is better software. I don't 
think the horse is quite dead. I think we can have better 
horses out there in our operating systems and our applications 
software and our networking software. It will never be perfect. 
We can't rely on that as a silver bullet. But I think the 
government has an opportunity through its acquisition practices 
to provide incentives to people who produce products that 
reduce the overall cost of ownership of those products. And if 
you save money because you buy product X over your experience 
with product Y, reward the vendor with some piece of that 
savings.
    The other thing is, as Ken mentioned, the early warning 
system I do think is critically important. Being able to 
develop an international indications and warning system that 
gives us advanced notice of these attacks is going to be 
critical to deal effectively with them effectively. And then 
ensuring that the various organizations that do research and 
development funding in this area within the Department of 
Defense organizations like DARPA, the Homeland Security 
Advanced Research Projects Agency, the Infrastructure Assurance 
and Infrastructure Protection Division of DHS, to ensure that 
those kinds of organizations continue to have a component of 
their budget that is focused on cybersecurity research.
    Ms. McCarthy. Excellent.
    Mr. Chairman, I apologize for going beyond my time, but I 
felt this would be worthwhile to have a summary from each on 
this question. I thank you.
    Mr. Upton. Thank you.
    Ms. Bono.
    Mrs. Bono. Thank you, Mr. Chairman. And thank all of the 
panelists as well.
    It is a perfect segue in to me when you started talking 
about children, because I have two teenagers at home and I have 
tried to educate them. We have talked about viruses, worms, and 
spam. But 1 day on my PC, this wonderful little Bonzi Buddy 
came up, which brings us to a new area, and that is Addware and 
Spyware. And nobody has really talked about Addware and Spyware 
yet, but I consider them to be as big a burden and if not 
increasingly more threatening to PC owners, both businesses and 
private individuals, as certainly spam is.
    I think people aren't quite aware of Spyware and Addware, 
but I try to describe it to my colleagues as the guy following 
you around in the trench coat with glasses on that you don't 
know is there but he is monitoring your every move. And I am 
wondering if you all--to be quite honest, I have legislation on 
Spyware and Addware out here, so I am hoping you all will lend 
some testimony to support my cause, although this is more about 
viruses.
    But if any of you could comment briefly on whether you 
think Spyware and Addware is as big a threat as are viruses to 
PC users. And, Mr. Wong, I am a huge Symantec user, and 
appreciate the work you do to save my family from harmful 
attacks.
    Mr. Wong. Well, thank you very much.
    Well, in terms of Spyware and Addware, that is an 
increasingly large--that is an increasingly large problem. I 
think it is even worse than you have already said it, in terms 
of having someone follow you around. In some cases, it is a bad 
as having someone in your own home and hiding in your closet 
without you knowing it. There are many technologies that are 
currently available that help block Addware and Spyware so that 
you can prevent some of these things.
    We certainly support the kind of legislation that you are 
talking about. But the other thing to note is that there is 
something called Spyware that can be used for good purposes as 
well, when you need to monitor, when you need to manage or help 
administer computers remotely, say if you need to support other 
people who work in your environment. There are certainly useful 
and legitimate reasons for having things or software that sit 
resident on a desktop and help you manage or monitor it.
    It becomes a problem when these things are in stealth mode, 
when they are hidden from the intended target, and when they 
are used for malicious purposes sometimes, as many times they 
are.
    Mrs. Bono. Excuse me. Let me jump in here. What is so great 
about my legislation, Mr. Chairman, is that all we are asking 
is that somebody who is placing some Spyware or Addware on an 
end user, is that in the end user license agreement they state 
we are doing this to you and you need to know it. It is a 
single box, and here it is, and do you accept it? And you can 
check yes or no. Because I see some reasonable reasons also for 
Spyware, Addware. It could be a consumer-friendly shopping 
service as well. But also, at the end I would like to have a 
one-button removal tool that removes the Spyware or Addware.
    So I just wanted to say that hopefully we are in agreement 
on this. And I believe BSA has been supportive of my 
legislation.
    So does anybody else want to comment on Spyware or--did I 
cut you off, Mr. Wong? I am sorry. Go ahead.
    Mr. Wong. No, not at all. Certainly having a button to 
remove it is something that would be helpful. There is already 
technology that can help block that kind of behavior and that 
kind of software that comes out. It is also worth mentioning 
that, in addition to having someone monitor your computer 
through Spyware, that through worms and viruses that are 
related, people who--these hackers can deposit code on your 
systems to gather information from you. And we have seen much 
of that before, where you inadvertently give passwords out to 
financial bank accounts, passwords to trading accounts. We have 
seen worms out there and viruses where they actually harvest 
information from financial institutions. If you are X bank or 
this financial institution, then send this type of information 
to another computer so that we can see--so that they can see 
what is in there and use it for their own malicious intent. But 
we fully support your type of initiative.
    Mrs. Bono. Thank you.
    Yes?
    Mr. Silva. I think that the initiative is very good. I 
think it is exactly the right direction for Spyware and other 
things. In fact, I mean, I believe that for any software that 
is installed on a computer, the user should know what they are 
installing, okay, quite frankly.
    Again, the problem comes back to what we have already 
discussed earlier. This is a fine step for the United States to 
take, but again it could potentially become an international 
problem. Where, you know, your legislation would certainly 
apply and I think is a noble effort within the United States, 
and I think that is probably where we are going to go after the 
vast majority of it anyway, but I still think we have the 
problem with the offshore.
    Mrs. Bono. I agree with you. But the initial reason behind 
my seeking this idea out was that when kids really download 
Kazaa and these P-to-P-type programs, what they don't realize 
is there still is an economic model as the basis for it, but 
someone else is making the money, not necessarily song writers. 
But there still is a money-making motive behind it all.
    So, yes, I think as Mr. Green said, it is a step in the 
right direction, and certainly if they move offshore. But 
currently it is the Kazaa sites and the P-to-P sites that are 
installing this Addware. I have had to go to the length of 
buying a computer for each of my kids to get them off of mine, 
because they slow the machine down and put all these great 
things on that are, you know, temperatures and times and you 
name it. So it is a step in the right direction, I think.
    Mr. Silva. So I think that maybe this is the first step in 
a multistep effort that, you know, perhaps in another year that 
we could actually have some legislation that actually targets 
the description for any software that, you know, that it 
shouldn't do things that it doesn't tell the user about. Okay? 
There shouldn't be software on a machine that sends data around 
and whatnot. Even if it is for legitimate purposes, the user 
should know, has the right to know what the software is doing.
    Now, you know, I mean, there is probably some limits on 
that information. But, quite frankly, I think that your 
proposed legislation here is applicable in many areas, not just 
in Spyware. There is legitimate software that some people call 
Spyware.
    Mrs. Bono. Well, thank you.
    Thank you, Mr. Chairman.
    Mr. Upton. Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman. It is a great hearing, 
very interesting.
    In the committee memo here that we were given today, I 
would like to read a sentence and then have some comments from 
you.
    I quote: The main reason for the long life of viruses and 
worms--and I suppose this has also occurred for the prevalence 
of viruses and worms--is a lack of updated antivirus protection 
by system administrators and computer users.
    I know you all have addressed this issue in some detail 
already. Is it time for the Federal Government to establish 
some sort of an Internet security agency that would develop 
standards for all legitimate software, require automatic 
updates, patches, and so forth, and establish a base level for 
every single computer in the country regardless of whether the 
user knew or didn't know what was best for that particular unit 
to prevent the spread of viruses and worms?
    Anybody want to comment on that?
    Mr. Holleyman. I will start.
    I think, Mr. Bass, the question you are asking is an 
appropriate question, which is, what does it take to build this 
culture of security? And it requires different things for 
different types of users. I mean, there are different standards 
we can rightfully expect for a home user, for a small business, 
for a large enterprise. We need to have different standards 
that address that. I am not sure that a Federal agency at this 
point is necessary to do that, given the new tools that are 
being placed within DHS giving some of those State Departments 
an international role. I think we have the right resources 
there.
    What we just need to do is build this awareness of how 
often does an individual need to update their antivirus; what 
would you expect within a medium-sized enterprise; do you have 
a firewall in place? Make that information plainly available, 
and then ultimately there is a balance that has to be struck 
here. We could create software, we could create a network that 
is so secure that it would be very difficult for legitimate 
users to use. You could build so many locks in a house and a 
building that people couldn't get in there. And so the balance 
has to be we have to improve on the status quo, because that is 
not acceptable. At the same time, we need a reasonable balance 
so that you have don't have to be a technical expert to run 
your home computer or your office computer. You just need to 
know what----
    Mr. Bass. And I know others may want to respond to this, 
but is there any reason why any computer in this country 
shouldn't have some kind of antivirus software on it as a 
requirement?
    Mr. Wong. Mr. Bass, there is no reason why there is a 
computer system out there that shouldn't have antivirus 
software on it.
    Mr. Upton. Mr. Wong, if I may just interrupt. You know, at 
Rotary you would be fined a dollar for that. You can at least 
mention Norton, right?
    Mr. Silva. Okay. So, actually the problem is these are 
called personal computers, a lot of them; and personal 
computers mean that they are shaped based on the personal 
characteristics of the individual who uses them. So I think 
that what you are proposing is tantamount to trimming a little 
fat off the Constitution. I am not so sure that if we have a 
bunch of computers out there, that the Federal Government is 
going to require them to receive automatic updates from 
somebody; who do they trust? Is this the government that they 
are going to trust to provide these updates to them? Or who is 
going to provide the updates to them and they must trust them?
    And the other thing is I think that the public outcry in 
this particular area of having software installed without the 
knowledge of the user--you know, on their systems as a mandate, 
I think would just be--I mean, it would just be shocking how--
the public outcry on this.
    Now, I mean, personally I think that we should--that smart 
computer users would in fact update their software and have it, 
but I am just not sure that any kind of agency, you know, 
Federal agency that required automatic updates on people's 
computers for all of their software is something that the 
public would tolerate, quite frankly.
    Mr. Hancock. I would like to address both issues. One 
issue, having to do with should you have a baseline security of 
your system. One of the things that I have been involved in for 
the last 2 years is the creation of cybersecurity best 
practices for the telco industry. And that is where anytime you 
pick up the phone, the person at the other end that runs all 
that for you, it is those kind of companies. Prior to 2 years 
ago, there were no cybersecurity best practices at all; now 
there is over 200 of them. Those best practices include virus 
protection, they include a wide range of security issues 
involved. There is a lot more to it than just should we go back 
and compel people to have an antivirus capability or firewall, 
or whatever the case may be.
    The problem with that is that the best practices are a 
start, they are not a finish at any stretch, and we are 
continuing to refine those. The Internet security lines, we 
have also generated best practices both for the home user--
there is a document about that--and best practices for 
executives on how to go back and measure their organizations, 
saying are we doing the right thing security-wise. Those are a 
start. They are not mandated, so to speak, but they are a very 
strong start to get people to start being aware of these are 
the things you can do.
    There are standards and practices that are put out by 
experts. The members of the team at the SEC, for instance, are 
all my equivalent partners; at the phone companies, are all the 
chief security officers of all the different phone companies 
that are out there, and they deal with the same problems that I 
do.
    But that is where we are starting right now because the 
problem is, is that when you really get down to it, personal 
computing, while we all use it and we all have it, is one 
aspect of computing. There is an aspect where a, quote unquote, 
personal computer may be used in a process control environment 
to control a factory automation network; where, if you put any 
antivirus software on there at all, or mandated it all, you 
would actually take that computer and make that invaluable to a 
desktop but it doesn't work at all in a factory production 
floor. The same thing would apply in power companies or water 
treatment facilities for the water plants. And I have a vast 
amount of experience putting these kinds of computers in, and 
none of these would be appropriate for antiviral-type of 
operations.
    However, we can confront those types of networks with 
different types of security technology to keep that sort of 
thing from even hitting those networks, because those computer 
networks, if they were forced to have that kind of technology 
imposed on them, would never operate efficiently nor operate 
correctly, and the end result is certain infrastructure would 
go splat and not work at all.
    So I believe that under certain categories there is a good 
security baseline requirement. I think there has been an 
enormous amount of energy put into the generation of real best 
practices that have real capabilities in the last 2 years that 
didn't exist 2 years ago. But I simultaneously believe that a 
mandate of a base security configuration for all computing 
types would probably be problematic at best, and something 
dangerous at worst, under certain conditions.
    As far as a Federal agency for mandating an oversight of 
something like this, I don't know that it is quite the time for 
that just yet, but I do believe that the adoption by the 
Federal Government of best practices and standards for 
computational capabilities such as those that are being 
developed by NIST right now and those developed by the 
Department of Commerce and those developed by the SEC, and 
start to spread those around where it is uniformly applied. And 
then also making that part of the chain of trust agreement 
between the Federal agencies and whoever they purchase 
equipment and technology from would be a very strong start to 
start making some of that stuff happen.
    Mr. Bass. Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    I would like to go back to something that Ms. Bono said, 
frustration that she had with her kids that she actually had to 
purchase a computer for each one of her kids. And I sense it 
was because of the P-to-P networking and the ability of harmful 
worms and viruses to spread, because she didn't have three 
computers--two kids. Right? How----
    Mrs. Bono. Excuse me, Mr. Chairman. Four computers. My 
husband has his own, too, because he is as bad as the kids.
    Mr. Upton. How do these P-to-P networks contribute to the 
ability of harmful worms and viruses spreading the damage? Is 
it an enormous problem? Is it a small problem? Does every 
family with kids need to get their own system for each one?
    Mr. Hancock. Mr. Chairman, I can address it from my 
perspective. We have several hundred thousand customers on our 
networks, that probably there are anywhere from 80 to 90 
million users. So we see P-to-P all the time. And the problem 
is that a lot of the end sources of P-to-P contribute false 
documents, false programs, things like that. Sometimes as a 
prank by children. Many times it is a way for them to go back 
and forward their agenda, like I said before, with the hacking 
gangs. We have actually had some situations like that.
    In the situation of using P-to-P to go back and forth, it 
is just another mechanism to transmit a virus or a worm, no 
different than using e-mail or using spam to go back and using 
e-mail as a transport mechanism. So P-to-P is just another 
transport mechanism to move malware around. The difference is 
is that most P-to-P is available to younger generation 
individuals, and those younger generation individuals a lot of 
times start messing around with this stuff and they don't know 
what they are messing around with. Or they actually have--in 
some cases we have seen rival cyber gangs, for lack of a better 
definition, that actually start to pick on each other by using 
P-to-P to transmit malware back and forth between each other, 
and it ends up getting spread all over the place because they 
put it up on different places for people to download things.
    And that is my direct experience with that. The other 
panelists may have a different view of it, but that is a lot of 
the times how this stuff gets into place, is based upon what we 
see in a live network.
    Mr. Upton. And as you talked earlier in your testimony 
about the nightmare scenario about how viruses could get worse, 
spreading to DVD players, Xbox games, cable systems. If it is 
P-to-P, I mean, it would be pretty dramatic.
    Mr. Silva. Well, that is right. And I agree with everything 
that Dr. Hancock said. The thing that actually further 
complicates it is that a lot of the people who are using the P-
to-P are doing stuff they shouldn't be doing. So their motives 
for reporting whenever they get viruses or worms from a P-to-P 
network are probably--there is probably a deterrent for them to 
report it, because then it begs the question, what exactly were 
you doing?
    Mr. Upton. Mr. Wong, I have a question. I will confess that 
I have your competitor antivirus on my system and I have had a 
little problem the last couple weeks. I would just be curious 
to know how this is dealt with. When I turn on my computer, I 
have Microsoft XP, and when I am just about to ready to get 
logged on to my password, it all of a sudden goes blank. The 
whole computer shuts off. I have got to restart the whole 
thing; it takes a couple of minutes. It happens probably every 
week. And then there is a little notice that comes on that 
says, Do you want this report to be filed with--I think it is 
McAfee, but I don't know if it goes to McAfee or if it goes to 
AOL. And I hit and click yes, and watch the little bars go, and 
a minute later it says okay, and you go ahead.
    What actually happens? How is that--is it reported that I 
had a problem? Is there some patch that I am able to get down 
the road that is going to fix it? Is this a ruse so that the 
culprit who sent this thing to me is laughing all the way? I 
mean, what is happening when I hit that yes button?
    Mr. Wong. Well, Mr. Upton, you are using a competitor's 
software. I am not surprised. But that being said, there is a 
good likelihood that you probably even have a virus on your 
computer system right now.
    Mr. Upton. That is what I suspect.
    Mr. Wong. When you press that button--and we have similar 
technology at Symantec where our 120 million users do have the 
ability to send us a sample of their virus that they may have 
contracted. When they send that to us, we have the ability to--
if it is a new type of virus or a new strain, we have the 
ability to create an antivirus for it and then send it out back 
to that person who sent us that particular virus. And then we 
have the ability to then inoculate and send the benefits or the 
signature of that virus back out to our 120 million users so 
that they as well are protected.
    Mr. Upton. So that at some point when you get an update, it 
may be taken care of.
    Mr. Wong. Absolutely, that is the case. We can see right 
now where even in our own antivirus laboratories we get as many 
as 10,000 submissions on a monthly basis of new viruses or new 
virus strains that have not been propagated in the wild. And 
what happens is that we develop definitions to detect these new 
viruses that you may not have even seen yet, and then you have 
the ability to, when you use the Norton antivirus product or 
Symantec, you get that automatically updated and sent to you 
without you even knowing it.
    Mr. Hancock. Mr. Chairman, being the geek on the panel, may 
I suggest, sir, that you go to the NAI site and download a 
utility called Stinger, and it will get rid of that.
    Mr. Upton. Okay. Good. I will do that. Thank you.
    Ms. Bono, you have additional questions?
    Mrs. Bono. Thank you, Mr. Chairman. Thank you. Just a 
couple.
    First of all, a comment that I think the ISPs are the first 
line of defense for the average consumer when AOL and MSN, or 
whomever, warns the user and reminds them to update. And I 
think for the average American the ISP is the portal to the 
Internet. They are not directly accessing the Internet. And so 
I would say that I think AOL does a good job, even though they 
use your competitor--I use, as I said, Norton. And I am a huge 
fan because I have gone--although sometimes you guys, your 
processes are very, very elaborate and you could simplify them 
for removing a virus.
    But would it ever get to the point where we have to just 
entirely separate our financial networks where--because that is 
my concern. I do all of my banking on line. And would you ever 
have an entirely separate way of accessing, say, your bank, and 
then keep your e-mail entirely separate? Is that where we are 
going to?
    Mr. Wong. Well, I think it is a matter of functionality 
versus security. And to have something that is completely 
secure, you would have to completely separate it. But then, of 
course, it might not be functional. You might not be able to do 
the things that you really need to do to be able to communicate 
or conduct transactions that you might really need to do if you 
were fully, fully secured by having separate systems.
    Now, that being said, what we can do is increase the level 
of protection that we have when we have sensitive information 
that we have on a single system, so that we have measures to 
protect us, to monitor things, to block certain behaviors, to 
block certain attacks that are coming in, to block viruses that 
are coming in, and to not let offending viruses or attacks come 
out of your own systems.
    So I think that it is more of a solution of instead of let 
us separate it and not have the functionality that we need, we 
need to really concentrate on what can we do better to secure 
what we have so that we continue to have the functionality and 
the communications that we need.
    Mrs. Bono. But in a strange way, if you do your banking 
over the telephone, using the keypad, it is secure. But the 
minute you go to your PC, you are losing that? You are not 
secure over the phone lines? No?
    Mr. Wong. I wouldn't say that you are any more secure by 
using the telephone. There has been a lot of--there was 
telephone hacking before there was Internet hacking. And 
certainly you take the same type of risks in the telephone as 
you do over the Internet.
    Mr. Hancock. And in some cases--I would agree with Mr. 
Wong--In some cases, one of the things you want to be careful 
about is making sure that you do what we call in the business 
``compartmentalization'' of your own computer. Specifically, if 
you have things that are very sensitive, you would want to 
potentially encrypt those files or make those files where, even 
if somebody did get ahold of them, they are useless to anyone 
else.
    And so you can't just assume that the computer is either 
secure or not secure. There are different levels you might 
impose upon yourself and on your own computer. So, for 
instance, on my computer I do my banking over the Internet; I 
charge and buy services over the Internet, but I am very 
careful who I do business with. I am very careful to use 
encrypted capabilities. I am very careful to store my data on 
my machine in such a manner that if you did break into my 
machine or someone did get onto my machine, if they steal 
really sensitive stuff, they are going to get a bunch of files 
full of gobbledygook because it has all been encrypted. So I 
think it is a matter of caring for different levels of 
sensitivity of information that you have and using the proper 
tools for that.
    Mrs. Bono. Does adding a router protect you to Trojan 
horses?
    Mr. Hancock. No, ma'am. Not at all.
    Mr. Pethia. And just building on that, we are almost 
talking about things like viruses and worms as if they were 
acts of nature that we can't do anything about. I mean, this is 
an engineering problem. And the reason that we are connecting 
everything with everything else is because it leads to greater 
business opportunity, it leads to greater efficiency, it leads 
to higher levels of productivity. There are good reasons to 
have all these things interconnected.
    But what we need to do is to ensure that the engineering 
solutions that we bring to the table when we do interconnect 
these things come with the right security characteristics. And 
that is what I think we need to push for. Not go backwards and 
try to segregate everything, but rather to try to put things 
together in the way that we are to begin with.
    Mrs. Bono. Interestingly enough, I think technology and the 
way we go is we move forward and sometimes we move backwards. 
Cell phones are getting bigger once again. So my thinking was, 
if we are going to start moving backwards again with separating 
out our networks.
    But thank you, Mr. Chairman, for this second round of 
questions. Thank you very much.
    Mr. Upton. Mr. Bass, do you have further questions?
    Mr. Bass. Thank you, Mr. Chairman. Yes.
    I would like to address the issue of economic terrorism 
over the Internet. I know some of you alluded to it. In some 
respects, you could say that the attack on the World Trade 
Center was the equivalent of a declaration of economic war and 
the fatalities were people who were capitalists and in 
business.
    The same kind of attacks can occur, as you all well know, 
over the Internet. And I was wondering if you could give me 
some sort of a summary as to the level and seriousness of 
organized international economic terrorist attacks on American 
or international Web sites such as Bank of America, for 
example, or a big international clearinghouse for funds and 
currencies, banking centers and investment centers and other 
economic spots. Is this a serious international problem? And 
what is being done about it?
    Mr. Hancock. I will take it first. The answer is, yes. And 
definitively, yes.
    Mr. Bass. And also are there governments that are 
conducting these attacks, or are these extranational forces?
    Mr. Hancock. I can't answer that question directly, sir, 
and it would probably be inappropriate to do it here. However, 
I will answer the first part, and basically state categorically 
that more and more financial institutions are using the 
Internet or the equivalent thereof to actually become the 
financial clearing and transaction network that is being used 
by those financial institutions. In fact, there are a couple of 
major financial institutions just recently used Internet-only 
for their entire transactional load in a specific day.
    In the case of January 25, when Slammer hit the Internet, 
that particular worm that hit the Internet was something that 
attacked a vulnerability that existed in a data base that had 
been patched 7 months previously. However, several large and 
major financial transaction institutions got hit very, very 
hard by that. And the only thing that saved them from getting 
into a situation where they could not complete the required and 
federally mandated transaction clearing was the fact that it 
hit on a weekend.
    Mr. Bass. Do you feel they were the target of the whole 
effort, or were they just a----
    Mr. Hancock. They were there, and they didn't patch and 
they got hit.
    Mr. Bass. I am interested in efforts that are made that are 
specifically organized to bring down economic institutions in 
the United States.
    Mr. Hancock. There are attacks that I have seen that have 
been directed specifically toward financial institutions in the 
United States. Some of those attacks have been originated 
outside the United States, some have been originated by 
disgruntled people inside the United States. And those have 
been led through the Internet. In most cases, it hasn't been 
debilitating to the financial institution because the 
institution itself does all its back-end financials on a back-
end network and not on the Internet or through a Web site.
    However, that is changing because more and more are 
starting to go that way, and therefore a debilitating attack 
would have a severe financial impact on that institution.
    Mr. Wong. Mr. Bass, if you take a look at the Bugbear 
virus, specifically that was actually targeted partially at 
financial institutions, where it was harvesting and gathering 
information and doing certain things if you were--a listed 
number of financial institutions that they specifically listed 
in the code of that particular virus.
    Mr. Silva. I think probably the U.S. intelligence services 
would probably be the best place to provide information on 
where--you know, asserted efforts against our financial 
community from foreign governments.
    However, what I would like to point out is that in all the 
sort of worms we have been talking about today in a general 
sense, most of them--most of them were nondestructive in nature 
in terms of the data that they destroyed behind them. Okay? In 
other words, they didn't. They simply infected a machine and 
then went on to the other machine. In most cases. I am not 
saying in all.
    If worms such as So Big, Blaster, NAGEE, and some of the 
others had actually--or in particular Slammer, which was 
specifically targeted at SQL data bases, MSSQL data bases. If 
those had actually eaten away and taken the data with them, 
that could have been very catastrophic. Many financial 
institutions in fact were infected with these worms, but it was 
nonimpacting to the customers because no data was altered or 
deleted. So it is not a giant leap to take these worms and make 
them some sort of targeted economic bomb, if you will. 
Fortunately, that hasn't happened yet.
    Mr. Wong. I would take that one step further in that I 
completely agree with Mr. Silva, in that the worms and viruses 
that we have seen in the last number of years, they have been 
destructive in the sense that they have caused downtime and 
things like that. But we haven't seen deadly payloads. We 
haven't seen hard drive crashes. We haven't seen destruction of 
data. But that technology already exists.
    There have been viruses that have been developed in the 
past where you can destroy the hard drive when you contract the 
virus, you can corrupt the data that is on that particular 
computer system. The worms that we have seen could be 
potentially just merely payload delivery devices for these 
types of destructive payload that already exists. So we haven't 
seen it yet, but the technology already exists, and that is 
certainly something that we need to be aware of for the future.
    Mr. Hancock. I would agree with Mr. Wong and Mr. Silva 
both, and add on one last thing about that. Just the Slammer 
worm itself was a good example of rapid propagation and rapid 
consumption of Internet bandwidth with zero payload. And that 
was the thing that was very startling about it. It was very 
professionally written, it had a very high rate of propagation 
speed, like in the order of 42 milliseconds. But what is more 
important, though, is that the payload was nothing. And if you 
put in even a DOS command like format, space, C, colon, it 
would have been absolutely catastrophically devastating to an 
enormous number of machines.
    So--and in the situation of taking and creating what we 
call a hybrid worm, which is a rapid propagation worm with a 
viral payload, is that possible? The answer is absolutely, yes, 
and it is just a matter of time.
    Mr. Silva. I guess I want to make sure that we are not sort 
of going in a direction where we are sort of suggesting that 
doing business on the Internet is a questionable thing, because 
I don't think it is. In fact, I think e-commerce on the 
Internet is very safe because there is fair amount of 
authentication that goes on between the bank and the end user 
here. Okay?
    So in terms of how these things move around and whether or 
not your credit card information is safe, I would absolutely 
say that credit card information that is passed over an SSO 
connection is far safer than pin numbers entered on a cordless 
phone in your living room.
    Mr. Bass. Thank you, Mr. Chairman. I might want to follow 
up on that if there is a chance for one more follow-up round. 
Thank you.
    Mr. Upton. Well, gentlemen, I thank you very much and we 
all appreciate your testimony, your leadership on this issue. 
It is a mighty concern by all Americans at all levels of use on 
computers, whether they be a small business, a large business, 
or our homes and working with our kids and our husband and 
wives. And we appreciate your leadership and your commitment to 
the cause, and we look forward to hearing from you again. Thank 
you very much. God bless.
    Whereupon, at 11:29 a.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

    [GRAPHIC] [TIFF OMITTED] T0727.009
    
    [GRAPHIC] [TIFF OMITTED] T0727.010
    
    [GRAPHIC] [TIFF OMITTED] T0727.011
    
    [GRAPHIC] [TIFF OMITTED] T0727.012
    
    [GRAPHIC] [TIFF OMITTED] T0727.013
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
